Pension Benefit Guaranty Corporation
    Office of Inspector General
             Audit Report




 Audit of the Pension Benefit Guaranty
 Corporation's Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements




           November 15, 2010
                                  AUD-2011-5/FA-10-69-4
                  Audit of the Pension Benefit Guaranty
                 Corporation’s Fiscal Year 2010 and 2009
                  Special-Purpose Financial Statements


                   Audit Report AUD-2011-5 / FA-10-69-4


                                  Contents


Section I:     Independent Auditor’s Report on
               Special-Purpose Financial Statements




                     U.S. Department of the Treasury
                     Financial Management Service
          Governmentwide Financial Report System (GFRS) Reports


Section II:    GF001G – Financial Statements Template with
                        Standard General Ledger (SGL) Accounts
Section III:   Audited Financial Statements (FS) Reports including
               Other Comprehensive Basis of Accounting (OCBOA) Reports
                  GF002A – Audited FS Report
                  GF002B – OCBOA Statement Report
                  GF002C – OCBOA Adjustments Report
Section IV:    GF003F – Closing Package Financial Statement Report
Section V:     GF003G – Closing Package Line Reclassification Summary Report
Section VI:    GF004F – Trading Partner Summary Note Report
Section VII: GF005F – Intragovernmental Trading Partner Summary Report
Section VIII: GF006    – Financial Report (FR) Notes Report
Section IX:    GF006F – Notes Status Report
Section X:     GF007F – Other FR Data Status Report
Section XI:    GF007   – Other Data Report
Section XII: GF008     – Completion and Approvals Report
Section XIII: GF120    – Reclassification Audit Trail Report
                         at Statement Summary Level
   Audit of the Pension Benefit Guaranty
  Corporation’s Fiscal Year 2010 and 2009
   Special-Purpose Financial Statements


  Audit Report AUD-2011-5 / FA-10-69-4




                Section I

  Independent Auditor’s Report on
Special-Purpose Financial Statements
a1
               Independent Auditor’s Report on Special-Purpose Financial Statements


To the Board of Directors, Management,
 and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


We have audited the accompanying reclassified balance sheets as of September 30, 2010 and
2009, and the related reclassified statements of net cost and changes in net position for the
years then ended (hereinafter referred to as the special-purpose financial statements) contained
in the special-purpose closing package of Pension Benefit Guaranty Corporation (PBGC).
These special-purpose financial statements are the responsibility of PBGC’s management. Our
responsibility is to express an opinion on these special-purpose financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the special-purpose financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the special-purpose financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall special-purpose financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes contained in
the special-purpose closing package have been prepared for the purpose of complying with the
requirements of the U.S. Department of the Treasury’s Financial Manual (TFM) Volume I,
Part 2, Chapter 4700 solely for the purpose of providing financial information to the
U.S. Department of the Treasury and U.S. Government Accountability Office to use in preparing
and auditing the Financial Report of the U.S. Government, and are not intended to be a
complete presentation of PBGC’s financial statements.

In our opinion, the special-purpose financial statements and accompanying notes referred to
above present fairly, in all material respects, the financial position of PBGC as of
September 30, 2010 and 2009, and its net costs and changes in net position for the years then
ended in conformity with accounting principles generally accepted in the United States of
America and the presentation pursuant to the requirements of the TFM Chapter 4700.




11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                                1
                                                                                 h
By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As
of September 30, 2010, PBGC reported in its general purpose financial statements, net deficit
positions (liabilities in excess of assets) in the Single-Employer and Multiemployer Program
Funds of $21,594 million and $1,436 million, respectively. As discussed in Note 9 to the general
purpose financial statements, loss exposure for the Single-Employer and Multiemployer
Programs that are reasonably possible as a result of unfunded vested benefits are estimated to
be $169,744 million and $20,000 million, respectively. Management based the Single-Employer
Program estimate on data for fiscal years ending in calendar year 2009 that was obtained from
filings and submissions to the government and from corporate annual reports. Subsequent
adjustment for economic conditions through September 30, 2010 has not been made and as a
result the exposure to loss for the Single-Employer Program as of September 30, 2010 could be
substantially different. In addition, PBGC’s net deficit and long-term viability could be further
impacted by losses from plans classified as reasonably possible (or from other plans not yet
identified as potential losses) as a result of deteriorating economic conditions, the insolvency of
a large plan sponsor or other factors. PBGC has been able to meet their short-term benefit
obligations. However, as discussed in Note 1 to the general purpose financial statements,
management believes that neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.

The information included in the Other Data Report is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by the TFM Chapter 4700. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding methodology and
presentation of this information. We also reviewed such information for consistency with the
related information presented in PBGC’s special-purpose financial statements. However, we did
not audit this information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued a combined report dated November 12, 2010 (see PBGC's Office of
Inspector General's Report Number AUD-2011-2/FA-10-69-1), which presents our opinion on
PBGC's financial statements; our opinion on management’s assertion about the effectiveness of
PBGC’s internal control over financial reporting; and our consideration of PBGC's compliance
with certain provisions of laws, regulations, and other matters. That report is an integral part of
an audit of general purpose financial statement reporting performed in accordance with
Government Auditing Standards and OMB Bulletin No. 07-04, as amended, and should be read
in conjunction with this report in considering the results of our audits.

In planning and performing our audits of the special-purpose financial statements, we also
considered PBGC’s internal control over the financial reporting process for the special-purpose
financial statements and compliance with the TFM Chapter 4700. Management is responsible
for establishing and maintaining internal control over financial reporting, including the Other
Data Report, and for complying with laws and regulations, including compliance with the TFM
Chapter 4700 requirements.

Our consideration of internal control over the financial reporting process for the special-purpose
financial statements would not necessarily disclose all matters in the internal control over the
financial reporting process that might be significant deficiencies. Under standards issued by the
American Institute of Certified Public Accountants, a control deficiency exists when the design
or operation of a control does not allow management or employees, in the normal course of




                                                2
performing their assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. A material weakness is a deficiency, or a combination of deficiencies, in
internal control such that there is a reasonable possibility that a material misstatement of the
entity’s special-purpose financial statements will not be prevented or detected and corrected on
a timely basis.

As part of our audit of the financial statements of PBGC, our examination of management’s
assertion about the effectiveness of the internal control over financial reporting
(including safeguarding assets) and compliance with certain provisions of laws, regulations, and
other matters we identified deficiencies in internal control over financial reporting
(including safeguarding assets) and compliance with laws and regulations and its operation that
we consider significant deficiencies, which combined constitute a material weakness, and is
described in further detail in PBGC’s Office of Inspector General’s Report Number AUD-2011-
3/FA-10-69-2. However, providing an opinion on internal control over the financial reporting
process for the special-purpose financial statements was not an objective of our audits of the
special-purpose financial statements and, accordingly, we do not express such opinion.

Our tests of compliance with the TFM Chapter 4700 requirements disclosed no instances of
noncompliance that are required to be reported under Government Auditing Standards and
OMB Bulletin No. 07-04, as amended. However, providing an opinion on compliance with the
TFM Chapter 4700 requirements was not an objective of our audits of the special-purpose
financial statements and, accordingly, we do not express such opinion.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, the U.S. Department of the Treasury, the Office of
Management and Budget, the U.S. Government Accountability Office, the United States
Congress, and the President in connection with the preparation and audit of the Financial
Report of the U.S. Government and is not intended to be and should not be used by anyone
other than these specified parties.


a1
Calverton, Maryland
November 15, 2010




                                                 3
           Audit of the Pension Benefit Guaranty
          Corporation’s Fiscal Year 2010 and 2009
           Special-Purpose Financial Statements


           Audit Report AUD-2011-5 / FA-10-69-4




                           Section II

GF001G – Financial Statements Template Report
 with Standard General Ledger (SGL) Accounts




                      Definition of Attributes


A     –   Non Custodial                 S    –   Custodial
ATB   –   Adjusted Trial Balance        T    –   Nonexchange
BSF   –   Budget Subfunction            TP   –   Trading Partner
F     –   Federal                       U    –   Undefined
N     –   Nonfederal                    X    –   Exchange
                                                                                                            11/15/2010 13:46:11
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                2010       Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

ASSETS
Cash and cash equivalents
SGL    Description                                                 Status F/N TP X/T        S/A       BSF   ATB Code
1010   Fund Balance With Treasury                                         U   U   U          U         U    ALL
1110   Undeposited Collections                                            N   U   U          A         U    ALL
1120   Imprest Funds                                                      N   U   U          U         U    ALL
1190   Other Cash                                                         N   U   U          U         U    ALL
1610   Investments in U.S. Treas. Securities Issued by BPD                 F ALL U           U         U    ALL
Securities lending collateral (Notes 3 and 5)
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1690 Other Investments                                                    N     U      U     U         U    ALL
Investments, at market (Notes 3 and 5):
Fixed maturity securities
SGL  Description                                                   Status F/N   TP X/T      S/A       BSF   ATB Code
1610 Investments in U.S. Treas. Securities Issued by BPD                   F    ALL U        U         U    ALL
1611 Discount on U.S. Treasury Securities Issued by BPD                    F    ALL U        U         U    ALL
1612 Premium on U.S. Treasury Securities Issued by BPD                     F    ALL U        U         U    ALL
1613 Amort. of Disc. & Pre. on U.S.Treasury Sec. Issued by BPD             F    ALL U        U         U    ALL
1618 Market Adjustment - Investments                                      N      U  U        U         U    ALL
1620 Investments in Securities Other Than BPD Securities                  N      U  U        U         U    ALL
1621 Discount on Securities Other Than BPD Securities                     N      U  U        U         U    ALL
1622 Premium on Securities Other Than BPD Securities                      N      U  U        U         U    ALL
1630 Invest in U.S. Treas Zero Coupon Bonds Issued by BPD                  F    ALL U        U         U    ALL
1631 Discount on U.S. Treasury Zero Coupon Bonds Issued by                 F    ALL U        U         U    ALL
     BPD
1633 Amort of Disc - U.S. Treas Zero Coupon Bonds Issued by               F     ALL   U      U        U     ALL
     BPD
1690 Other Investments                                                    N     U     U      U        U     ALL
Equity securities
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Private equity
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Real estate and real estate investment trusts
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL




                                                             -1-
                                                                                                          11/15/2010 13:46:11
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:               2010      Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                     N     U     U     U         U    ALL
1690 Other Investments                                                   N     U     U     U         U    ALL
Total investments
Calculation
Line Description
 5     Fixed maturity securities
 6     Equity securities
 7     Private equity
 8     Real estate and real estate investment trusts
 9     Other
Receivables, net:
Sponsors of terminated plans
SGL     Description                                               Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                              N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                        N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                   N     U     U     A         U    ALL
Premiums (Note 11)
SGL  Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
1319 Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340 Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1347 Allowance for Loss on Interest Receivable - Not Otrws               N     U     U     A         U    ALL
     Class.
1360 Penalties and Fines Receivable - Not Otherwise Classified           N     U    U      A        U     ALL
1367 Allowance for Loss on Penal. & Fines Rec. - Not Otrws               N     U    U      A        U     ALL
     Class.
Sale of securities
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Derivative contracts (Note 4)
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Investment income
SGL     Description                                               Status F/N TP X/T       S/A       BSF   ATB Code
1310    Accounts Receivable                                              N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                 F ALL U          A         U    ALL




                                                            -2-
                                                                                                             11/15/2010 13:46:11
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                  2010      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1341    Interest Receivable - Loans                                         N     U     U     A         U    ALL
1345    Allowance for Loss on Interest Receivable - Loans                   N     U     U     A         U    ALL
1350    Loans Receivable                                                    N     U     U     U         U    ALL
1359    Allowance for Loss on Loans Receivable                              N     U     U     U         U    ALL
1360    Penalties and Fines Receivable - Not Otherwise Classified           N     U     U     A         U    ALL
1410    Advances and Prepayments                                            N     U     U     U         U    ALL
1990    Other Assets                                                        N     U     U     U         U    ALL
2400    Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                 N     U     U     U         U    ALL
        Collect.
Total receivables
Calculation
Line Description
 12    Sponsors of terminated plans
 13    Premiums (Note 11)
 14    Sale of securities
 15    Derivative contracts (Note 4)
 16    Investment income
 17    Other
Capitalized assets, net
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1750    Equipment                                                           N     U     U     U         U    ALL
1759    Accumulated Depreciation on Equipment                               N     U     U     U         U    ALL
1820    Leasehold Improvement                                               N     U     U     U         U    ALL
1829    Accumulated Amortization on Leasehold Improvements                  N     U     U     U         U    ALL
1830    Internal-Use Software                                               N     U     U     U         U    ALL
1832    internal-Use Software in Development                                N     U     U     U         U    ALL
1839    Accumulated Amortization on Internal-Use Software                   N     U     U     U         U    ALL
Total assets
Calculation
Line Description
 2     Cash and cash equivalents
 3     Securities lending collateral (Notes 3 and 5)
 10    Total investments
 18    Total receivables
 19    Capitalized assets, net


LIABILITIES
Present value of future benefits, net (Note 6):




                                                               -3-
                                                                                                               11/15/2010 13:46:11
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                    2010      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Trusteed plans
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Plans pending termination and trusteeship
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Settlements and judgments
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Claims for probable terminations
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                              N     U     U     U         U    ALL
Total present value of future benefits, net
Calculation
Line Description
 24    Trusteed plans
 25    Plans pending termination and trusteeship
 26    Settlements and judgments
 27    Claims for probable terminations
Present value of nonrecoverable future financial assistance (Note 7)
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                   N     U     U     U         U    ALL
Derivative contracts (Note 4)
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Due for purchases of securities
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Payable upon return of securities loaned
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Securities sold under repurchase agreements
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                  N     U     U     U         U    ALL
Unearned premiums
SGL Description                                                        Status F/N   TP   X/T   S/A       BSF   ATB Code
2320 Other Deferred Revenue                                                   N     U     U     U         U    ALL
2400 Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                      N     U     U     U         U    ALL
     Collect.


                                                                 -4-
                                                                                                              11/15/2010 13:46:11
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                     2010    Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Inactive - Due for purchases of securities
Inactive - Derivative contracts (Note 4)
Accounts payable and accrued expenses (Note 8)
SGL     Description                                                     Status F/N   TP X/T   S/A       BSF   ATB Code
2110    Accounts Payable                                                        F    ALL U     A         U    ALL
2110    Accounts Payable                                                       N      U  U     A         U    ALL
2120    Disbursements in Transit                                                F    ALL U     U         U    ALL
2120    Disbursements in Transit                                               N      U  U     U         U    ALL
2130    Contract Holdbacks                                                     N      U  U     U         U    ALL
2210    Accrued Funded Payroll and Leave                                       N      U  U     U         U    ALL
2213    Employer Contributions and Payroll Taxes Payable                        F    ALL U     U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                          F    ALL U     U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                         N      U  U     U         U    ALL
2220    Unfunded Leave                                                         N      U  U     U         U    ALL
2400    Liab. for Nonfid. Dep. Funds, Clear. Acct. & Undep.                    N      U  U     U         U    ALL
        Collect.
Total liabilities
Calculation
Line Description
 28    Total present value of future benefits, net
 29    Present value of nonrecoverable future financial assistance (Note 7)
 30    Derivative contracts (Note 4)
 31    Due for purchases of securities
 32    Payable upon return of securities loaned
 33    Securities sold under repurchase agreements
 34    Unearned premiums
 37    Accounts payable and accrued expenses (Note 8)




                                                                -5-
                                                                                                       11/15/2010 13:46:11
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                 2010     Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Net position
SGL     Description                                                 Status F/N   TP X/T    S/A   BSF   ATB Code
3310    Cumulative Results of Operations                                   U      U  U      U     U    ALL
5310    Interest Revenue - Other                                           N      U  T      A    ALL   ALL
5310    Interest Revenue - Other                                           N      U  X      A    ALL   ALL
5311    Interest Revenue - Investments                                      F    ALL X      A    ALL   ALL
5311    Interest Revenue - Investments                                     N      U  X      A    ALL   ALL
5320    Penalties and Fines Revenue                                        N      U  T      A    ALL   ALL
5329    Contra Revenue for Administrative Fees                             N      U  T      A    ALL   ALL
5500    Insurance and Guarantee Premium Revenue                            N      U  X      U    ALL   ALL
5765    Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U      U     U    ALL
5780    Imputed Financing Sources                                           F    ALL U      U     U    ALL
5900    Other Revenue                                                       F    ALL X      A    ALL   ALL
5900    Other Revenue                                                      N      U  X      A    ALL   ALL
6100    Operating Expenses/Program Cost                                     F    ALL U      U    ALL   ALL
6100    Operating Expenses/Program Cost                                    N      U  U      U    ALL   ALL
6330    Other Interest Expenses                                            N      U  U      A    ALL   ALL
6400    Benefit Expense                                                     F    ALL U      U    ALL   ALL
6400    Benefit Expense                                                    N      U  U      U    ALL   ALL
6720    Bad Debt Expense                                                   N      U  U      U    ALL   ALL
6730    Imputed Costs                                                       F    ALL U      U    ALL   ALL
6790    Other Expenses Not Requiring Budgetary Resources                   N      U  U      U    ALL   ALL
6850    Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U      U    ALL   ALL
        BA
7110    Gains on Disposition of Assets - Other                             N      U    X    U    ALL   ALL
7111    Gains on Disposition of Investments                                F     ALL   X    U     U    ALL
7111    Gains on Disposition of Investments                                N      U    X    U     U    ALL
7180    Unrealized Gains                                                   F     ALL   X    U     U    ALL
7180    Unrealized Gains                                                   N      U    X    U     U    ALL
7190    Other Gains                                                        N      U    X    U    ALL   ALL
7210    Losses on Disposition of Assets - Other                            N      U    X    U    ALL   ALL
7211    Losses on Disposition of Investments                               F     ALL   X    U     U    ALL
7211    Losses on Disposition of Investments                               N      U    X    U     U    ALL
7280    Unrealized Losses                                                  F     ALL   X    U     U    ALL
7280    Unrealized Losses                                                  N      U    X    U     U    ALL
7290    Other Losses                                                       N      U    X    U    ALL   ALL
7600    Changes in Actuarial Liability                                     N      U    U    U    ALL   ALL
Total liabilities and net position
Calculation
Line Description
 38    Total liabilities
 39    Net position




                                                              -6-
                                                                                                 11/15/2010 13:46:11
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:            2010    Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

UNDERWRITING:
Income:
Premium, net (Note 11)
Other
Total
Expenses:
Administrative
Other
Total
Other underwriting activity:
Losses from completed and probable terminations (Note 12)
Losses from financial assistance (Note 7)
Actuarial adjustments (credits) (Note 6)
Total
Underwriting gain (loss)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed
Equity
Private equity
Other
Total
Expenses:
Investment
Actuarial charges (Note 6):
Due to passage of time
Due to change in interest rates
Total
Financial income (loss)
Net loss
Calculation
Line Description
 15    Underwriting gain (loss)
 29    Financial income (loss)
                                                            -7-
                                                                                                            11/15/2010 13:46:11
                                          U.S. Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System
                                   Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:                2010       Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Total Costs
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5765   Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U        U     U        ALL
6100   Operating Expenses/Program Cost                                     F    ALL U        U    ALL       ALL
6100   Operating Expenses/Program Cost                                    N      U  U        U    ALL       ALL
6330   Other Interest Expenses                                            N      U  U        A    ALL       ALL
6400   Benefit Expense                                                     F    ALL U        U    ALL       ALL
6400   Benefit Expense                                                    N      U  U        U    ALL       ALL
6720   Bad Debt Expense                                                   N      U  U        U    ALL       ALL
6730   Imputed Costs                                                       F    ALL U        U    ALL       ALL
6790   Other Expenses Not Requiring Budgetary Resources                   N      U  U        U    ALL       ALL
6850   Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U        U    ALL       ALL
       BA
7210   Losses on Disposition of Assets - Other                            N      U    X      U    ALL       ALL
7211   Losses on Disposition of Investments                               F     ALL   X      U     U        ALL
7211   Losses on Disposition of Investments                               N      U    X      U     U        ALL
7280   Unrealized Losses                                                  N      U    X      U     U        ALL
7290   Other Losses                                                       N      U    X      U    ALL       ALL
7600   Changes in Actuarial Liability                                     N      U    U      U    ALL       ALL
Total Revenue
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5310   Interest Revenue - Other                                           N      U  T        A    ALL       ALL
5310   Interest Revenue - Other                                           N      U  X        A    ALL       ALL
5311   Interest Revenue - Investments                                      F    ALL X        A    ALL       ALL
5311   Interest Revenue - Investments                                     N      U  X        A    ALL       ALL
5320   Penalties and Fines Revenue                                        N      U  T        A    ALL       ALL
5329   Contra Revenue for Administrative Fees                             N      U  T        A    ALL       ALL
5500   Insurance and Guarantee Premium Revenue                            N      U  X        U    ALL       ALL
5780   Imputed Financing Sources                                           F    ALL U        U     U        ALL
5900   Other Revenue                                                       F    ALL X        A    ALL       ALL
5900   Other Revenue                                                      N      U  X        A    ALL       ALL
7110   Gains on Disposition of Assets - Other                             N      U  X        U    ALL       ALL
7111   Gains on Disposition of Investments                                 F    ALL X        U     U        ALL
7111   Gains on Disposition of Investments                                N      U  X        U     U        ALL
7180   Unrealized Gains                                                   N      U  X        U     U        ALL
7190   Other Gains                                                        N      U  X        U    ALL       ALL
Net position, beginning of year
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
3310 Cumulative Results of Operations                                     U     U      U     U         U    ALL
Net position, end of year
Calculation
Line Description
 31    Total Costs
 32    Total Revenue
 33    Net position, beginning of year




                                                             -8-
    Audit of the Pension Benefit Guaranty
   Corporation’s Fiscal Year 2010 and 2009
    Special-Purpose Financial Statements


    Audit Report AUD-2011-5 / FA-10-69-4




                Section III

Audited Financial Statement (FS) Reports
 including Other Comprehensive Basis
    of Accounting (OCBOA) Reports

    GF002A – Audited FS Report
    GF002B – OCBOA Statement Report
    GF002C – OCBOA Adjustments Report
                                                                                             11/15/2010 15:03:24
                                        U.S.Department of the Treasury
                                         Financial Management Service
                                    Governmentwide Financial Report System

                                            GF002A - Audited FS Report


Statement:    BALANCE SHEET                           Fiscal Year: 2010                Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                 Reported in: MILLIONS            Decimal: ZERO
        CORPORATION

Agency Line Description                                      FY 2010-SEPTEMBER              FY 2009-SEPTEMBER

ASSETS
Cash and cash equivalents                                                      4,448                       3,752
Securities lending collateral (Notes 3 and 5)                                  5,791                       2,507
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                     41,396                      34,461
Equity securities                                                             22,393                      22,954
Private equity                                                                 2,050                       1,237
Real estate and real estate investment trusts                                    459                         596
Other                                                                             17                         507
Total investments                                                             66,315                      59,755
Receivables, net:
Sponsors of terminated plans                                                      11                          85
Premiums (Note 11)                                                               756                         603
Sale of securities                                                             1,589                       1,829
Derivative contracts (Note 4)                                                     78                          69
Investment income                                                                430                         410
Other                                                                              5                           3
Total receivables                                                              2,869                       2,999
Capitalized assets, net                                                           32                          29
Total assets                                                                  79,455                      69,042

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                88,022                      80,507
Plans pending termination and trusteeship                                        501                         601
Settlements and judgments                                                         55                          58
Claims for probable terminations                                               1,445                       1,870
Total present value of future benefits, net                                   90,023                      83,036
Present value of nonrecoverable future financial                               3,030                       2,296
assistance (Note 7)
Derivative contracts (Note 4)                                                  67                            111
Due for purchases of securities                                             3,076                          1,922
Payable upon return of securities loaned                                    5,791                          2,507
Securities sold under repurchase agreements                                     0                            643
Unearned premiums                                                             395                            386
Accounts payable and accrued expenses (Note 8)                                103                             87
Total liabilities                                                         102,485                         90,988
Net position                                                              (23,030)                       (21,946)
Total liabilities and net position                                         79,455                         69,042




                                                        - 1 -
                                                                                           11/15/2010 15:03:24
                                      U.S.Department of the Treasury
                                       Financial Management Service
                                  Governmentwide Financial Report System

                                         GF002A - Audited FS Report


Statement:   INCOME STATEMENT                      Fiscal Year: 2010                 Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY              Reported in: MILLIONS             Decimal: ZERO
        CORPORATION

Agency Line Description                                   FY 2010-SEPTEMBER               FY 2009-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                     2,324                         1,917
Other                                                                         30                            18
Total                                                                      2,354                         1,935
Expenses:
Administrative                                                               380                           368
Other                                                                         (7)                           15
Total                                                                        373                           383
Other underwriting activity:
Losses from completed and probable terminations                              509                         4,234
(Note 12)
Losses from financial assistance (Note 7)                                     831                          614
Actuarial adjustments (credits) (Note 6)                                   (1,190)                        (573)
Total                                                                         150                        4,275
Underwriting gain (loss)                                                    1,831                       (2,723)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                      5,416                         4,600
Equity                                                                     2,116                         2,015
Private equity                                                               404                          (158)
Other                                                                       (159)                           (6)
Total                                                                      7,777                         6,451
Expenses:
Investment                                                                    81                            49
Actuarial charges (Note 6):
Due to passage of time                                                   4,215                           3,923
Due to change in interest rates                                          6,396                          10,551
Total                                                                   10,692                          14,523
Financial income (loss)                                                 (2,915)                         (8,072)
Net loss                                                                (1,084)                        (10,795)
Total Costs                                                            (12,013)                        (23,178)
Total Revenue                                                           10,929                          12,383
Net position, beginning of year                                        (21,946)                        (11,151)
Net position, end of year                                              (23,030)                        (21,946)




                                                     - 2 -
                                                                                                11/15/2010 15:03:25
                                            U.S.Department of the Treasury
                                             Financial Management Service
                                        Governmentwide Financial Report System

                                           GF002B - OCBOA Statement Report


Statement:   BALANCE SHEET                                        Fiscal Year: 2010            Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION               Reported in: MILLIONS        Decimal: ZERO


Agency Line Description                                               FY 2010-SEPTEMBER          FY 2009-SEPTEMBER

ASSETS
Cash and cash equivalents                                                              4,448                     3,752
Securities lending collateral (Notes 3 and 5)                                          5,791                     2,507
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                             39,631                   33,742
Equity securities                                                                     22,393                   22,954
Private equity                                                                         2,050                    1,237
Real estate and real estate investment trusts                                            459                      596
Other                                                                                     17                      507
Total investments                                                                     64,550                   59,036
Receivables, net:
Sponsors of terminated plans                                                              11                       85
Premiums (Note 11)                                                                       756                      603
Sale of securities                                                                     1,589                    1,829
Derivative contracts (Note 4)                                                             78                       69
Investment income                                                                        430                      410
Other                                                                                      5                        3
Total receivables                                                                      2,869                    2,999
Capitalized assets, net                                                                   32                       29
Total assets                                                                          77,690                   68,323

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                        88,022                   80,507
Plans pending termination and trusteeship                                                501                      601
Settlements and judgments                                                                 55                       58
Claims for probable terminations                                                       1,445                    1,870
Total present value of future benefits, net                                           90,023                   83,036
Present value of nonrecoverable future financial assistance                            3,030                    2,296
(Note 7)
Derivative contracts (Note 4)                                                          67                          111
Due for purchases of securities                                                     3,076                        1,922
Payable upon return of securities loaned                                            5,791                        2,507
Securities sold under repurchase agreements                                             0                          643
Unearned premiums                                                                     395                          386
Accounts payable and accrued expenses (Note 8)                                        103                           87
Total liabilities                                                                 102,485                       90,988
Net position                                                                      (24,795)                     (22,665)
Total liabilities and net position                                                 77,690                       68,323




                                                              - 1 -
                                                                                                11/15/2010 15:03:25
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                         GF002B - OCBOA Statement Report


Statement:   INCOME STATEMENT                                   Fiscal Year: 2010              Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS          Decimal: ZERO


Agency Line Description                                             FY 2010-SEPTEMBER            FY 2009-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                                2,324                      1,917
Other                                                                                    30                         18
Total                                                                                 2,354                      1,935
Expenses:
Administrative                                                                         380                        368
Other                                                                                   (7)                        15
Total                                                                                  373                        383
Other underwriting activity:
Losses from completed and probable terminations (Note 12)                               509                      4,234
Losses from financial assistance (Note 7)                                               831                        614
Actuarial adjustments (credits) (Note 6)                                             (1,190)                      (573)
Total                                                                                   150                      4,275
Underwriting gain (loss)                                                              1,831                     (2,723)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                                 4,370                      3,963
Equity                                                                                2,116                      2,015
Private equity                                                                          404                       (158)
Other                                                                                  (159)                        (6)
Total                                                                                 6,731                      5,814
Expenses:
Investment                                                                               81                         49
Actuarial charges (Note 6):
Due to passage of time                                                                4,215                      3,923
Due to change in interest rates                                                       6,396                     10,551
Total                                                                                10,692                     14,523
Financial income (loss)                                                              (3,961)                    (8,709)
Net loss                                                                             (2,130)                   (11,432)
Total Costs                                                                         (11,908)                   (23,178)
Total Revenue                                                                         9,778                     11,746
Net position, beginning of year                                                     (22,665)                   (11,233)
Net position, end of year                                                           (24,795)                   (22,665)




                                                            - 2 -
                                                                                                                    11/15/2010 15:03:26
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                           Fiscal Year:      2010             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line            FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER      FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

ASSETS
Cash and cash                      4,448              4,448                  0                      3,752         3,752                      0
equivalents
Securities lending                 5,791              5,791                  0                      2,507         2,507                      0
collateral (Notes 3
and 5)
Investments, at
market (Notes 3
and 5):
Fixed maturity                    41,396            39,631              (1,765)                   34,461        33,742                    (719)
securities
Equity securities                 22,393            22,393                   0                    22,954        22,954                       0
Private equity                     2,050             2,050                   0                     1,237         1,237                       0
Real estate and real                 459               459                   0                       596           596                       0
estate investment
trusts
Other                                 17                17                   0                       507           507                       0
Total investments                 66,315            64,550              (1,765)                   59,755        59,036                    (719)
Receivables, net:
Sponsors of                           11                 11                  0                         85            85                      0
terminated plans
Premiums (Note 11)                   756                756                  0                        603           603                      0
Sale of securities                 1,589              1,589                  0                      1,829         1,829                      0
Derivative contracts                  78                 78                  0                         69            69                      0
(Note 4)
Investment income                    430                430                  0                        410           410                      0
Other                                  5                  5                  0                          3             3                      0
Total receivables                  2,869              2,869                  0                      2,999         2,999                      0
Capitalized assets,                   32                 32                  0                         29            29                      0
net
Total assets                      79,455            77,690              (1,765)                   69,042        68,323                    (719)

LIABILITIES
Present value of
future benefits, net
(Note 6):
Trusteed plans                   (88,022)           (88,022)                 0                    (80,507)      (80,507)                     0
Plans pending                       (501)              (501)                 0                       (601)         (601)                     0
termination and
trusteeship



                                                                    - 1 -
                                                                                                                    11/15/2010 15:03:26
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                           Fiscal Year:      2010             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER     FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference             Audit Amt       OCBOA Amt          Difference

Settlements and                        (55)              (55)                0                        (58)          (58)                    0
judgments
Claims for probable                 (1,445)           (1,445)                0                     (1,870)       (1,870)                    0
terminations
Total present value                (90,023)          (90,023)                0                    (83,036)      (83,036)                    0
of future benefits,
net
Present value of                    (3,030)           (3,030)                0                     (2,296)       (2,296)                    0
nonrecoverable
future financial
assistance (Note 7)
Derivative contracts                   (67)              (67)                0                       (111)         (111)                    0
(Note 4)
Due for purchases of                (3,076)           (3,076)                0                     (1,922)       (1,922)                    0
securities
Payable upon return                 (5,791)           (5,791)                0                     (2,507)       (2,507)                    0
of securities loaned
Securities sold under                    0                 0                 0                       (643)         (643)                    0
repurchase
agreements
Unearned premiums                     (395)             (395)                0                       (386)         (386)                    0
Accounts payable                      (103)             (103)                0                        (87)          (87)                    0
and accrued
expenses (Note 8)
Total liabilities                 (102,485)         (102,485)                 0                   (90,988)      (90,988)                    0
Net position                        23,030            24,795              1,765                    21,946        22,665                   719
Total liabilities and              (79,455)          (77,690)             1,765                   (69,042)      (68,323)                  719
net position




                                                                     - 2 -
                                                                                                                    11/15/2010 15:03:26
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                         Fiscal Year:     2010            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                             Reported in:     MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER      FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

UNDERWRITING:
Income:
Premium, net (Note                  2,324             2,324                   0                    1,917         1,917                       0
11)
Other                                  30                30                   0                       18            18                       0
Total                               2,354             2,354                   0                    1,935         1,935                       0
Expenses:
Administrative                       380                380                   0                      368           368                       0
Other                                 (7)                (7)                  0                       15            15                       0
Total                                373                373                   0                      383           383                       0
Other underwriting
activity:
Losses from                          509                509                   0                    4,234         4,234                       0
completed and
probable
terminations (Note
12)
Losses from                          831                831                   0                      614           614                       0
financial assistance
(Note 7)
Actuarial                          (1,190)            (1,190)                 0                     (573)         (573)                      0
adjustments (credits)
(Note 6)
Total                                 150               150                   0                     4,275         4,275                      0
Underwriting gain                   1,831             1,831                   0                    (2,723)       (2,723)                     0
(loss)
FINANCIAL:
Investment income
(loss) (Note 13):
Fixed                               5,416             4,370              (1,046)                   4,600         3,963                    (637)
Equity                              2,116             2,116                   0                    2,015         2,015                       0
Private equity                        404               404                   0                     (158)         (158)                      0
Other                                (159)             (159)                  0                       (6)           (6)                      0
Total                               7,777             6,731              (1,046)                   6,451         5,814                    (637)
Expenses:
Investment                             81                81                   0                       49            49                       0
Actuarial charges
(Note 6):
Due to passage of                   4,215             4,215                   0                    3,923         3,923                       0
time



                                                                     - 3 -
                                                                                                                    11/15/2010 15:03:26
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                        Fiscal Year:      2010             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS       Decimal: ZERO

     All Amounts Shown as Debits and Credits().

Agency Line            FY 2010-SEPTEMBER FY 2010-SEPTEMBER FY 2010-SEPTEMBER      FY 2009-SEPTEMBER FY 2009-SEPTEMBER FY 2009-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

Due to change in                    6,396            6,396                   0                    10,551        10,551                       0
interest rates
Total                              10,692           10,692                   0                    14,523        14,523                       0
Financial income                   (2,915)          (3,961)             (1,046)                   (8,072)       (8,709)                   (637)
(loss)
Net loss                           (1,084)          (2,130)             (1,046)                   (10,795)      (11,432)                  (637)
Total Costs                        12,013           11,908                (105)                    23,178        23,178                      0
Total Revenue                     (10,929)          (9,778)              1,151                    (12,383)      (11,746)                   637
Net position,                      21,946           22,665                 719                     11,151        11,233                     82
beginning of year
Net position, end of               23,030           24,795               1,765                    21,946        22,665                    719
year




                                                                    - 4 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




             Section IV

   GF003F – Closing Package
   Financial Statement Report
                                                                       U.S Department of the Treasury                                        11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2010                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                    Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                                 4,399                             3,706                               3,706
Accounts and Taxes Receivable                                                  2,440                             2,589                               3,747
Loans Receivable and mortgage                                                      0                                 0                                   0
backed securities
TARP Direct Loans and Equity                                                       0                                 0                                      0
Investments
Beneficial Interest in Trust                                                      0                                  0                                   0
Inventory and Related Property                                                    0                                  0                                   0
Property, Plant and Equipment                                                    32                                 29                                  29
Debt and Equity Securities                                                   49,487                             43,613                              43,582
Investment in Government sponsored                                                0                                  0                                   0
enterprises (GSEs)
Derivative Assets                                                               (23)                               (26)                                  0
Other Assets                                                                      0                                  0                                   0
Total Non-Federal Assets                                                     56,335                             49,911                              51,064

Federal
Fund Balance with Treasury                                                        1                                  1                                   1
Federal Investments                                                          21,178                             18,219                              18,047
Accounts Receivable                                                               0                                  0                                   0
Interest Receivable                                                             176                                192                                 192
Loans Receivable                                                                  0                                  0                                   0
Transfers Receivable                                                              0                                  0                                   0
Benefit Program Contributions                                                     0                                  0                                   0




                                                                                              -1-
                                                                       U.S Department of the Treasury                                         11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2010                               Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                     Previously Reported
Receivable
Advances to Others and Prepayments                                                0                                   0                                   0
Other Assets (without reciprocals)                                                0                                   0                                   0
Total Federal Assets                                                         21,355                              18,412                              18,240
Total Assets                                                                 77,690                              68,323                              69,304

Liabilities
Non-Federal
Accounts Payable                                                                 (88)                               (73)                                (73)
Federal Debt Securities Held by the                                                0                                  0                                   0
Public
Federal Employee and Veteran                                                       0                                  0                                      0
Benefits Payable
Environmental and Disposal                                                         0                                  0                                      0
Liabilities
Benefits Due and Payable                                                           0                                  0                                      0
Loan Guarantee Liabilities                                                         0                                  0                                      0
Liabilities to Government Sponsored                                                0                                  0                                      0
Enterprises
Insurance and Guarantee Program                                             (90,023)                            (83,036)                            (83,036)
Liabilities
Derivative Liabilities                                                          (12)                                 (9)                                  0
Other Liabilities                                                           (12,361)                             (7,869)                             (9,031)
Total Non-Federal Liabilities                                              (102,484)                            (90,987)                            (92,140)

Federal




                                                                                              -2-
                                                                       U.S Department of the Treasury                                         11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:        2010                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                        2009-SEPTEMBER                    Previously Reported
Accounts Payable                                                                    0                                 0                                   0
Federal Debt                                                                        0                                 0                                   0
Interest Payable                                                                    0                                 0                                   0
Loans Payable                                                                       0                                 0                                   0
Transfers Payable                                                                   0                                 0                                   0
Benefit Program Contributions                                                      (1)                               (1)                                 (1)
Payable
Advances from Others and Deferred                                                   0                                 0                                      0
Credits
Liability to the General Fund for                                                   0                                 0                                      0
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                           0                                   0                                   0
Total Federal Liabilities                                                        (1)                                 (1)                                 (1)
Total Liabilities                                                          (102,485)                            (90,988)                            (92,141)


Net Position
Net Position-Non-Earmarked Funds                                             24,795                              22,665                              22,837
Net Position-Earmarked Funds                                                      0                                   0                                   0
Total Net Position                                                           24,795                              22,665                              22,837
Total Liabilities and Net Position                                          (77,690)                            (68,323)                            (69,304)




                                                                                               -3-
                                                                       U.S Department of the Treasury                                         11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:        2010                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                        2009-SEPTEMBER                    Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                       11,822                              22,841                              22,841
Interest on Debt Held by the Public                                               0                                   0                                   0
Gain/Loss from changes in actuarial                                               0                                   0                                   0
assumptions
Total Non-Federal Gross Cost                                                 11,822                              22,841                              22,841

Federal Gross Cost
Benefit Program Costs                                                              21                               19                                  19
Imputed Costs                                                                       6                                8                                   8
Buy/Sell Costs                                                                      5                               (4)                                 (4)
Federal Securities Interest Expense                                                54                              314                                 314
Borrowing and Other Interest                                                        0                                0                                   0
Expense
Borrowing Losses                                                                  0                                   0                                   0
Other Expenses (without reciprocals)                                              0                                   0                                   0
Total Federal Gross Cost                                                         86                                 337                                 337
Department Total Gross Cost                                                  11,908                              23,178                              23,178

Earned Revenue
Non-Federal Earned Revenue                                                    (8,062)                           (10,427)                            (10,427)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                  0                                   0
Buy/Sell Revenue                                                                   0                                  0                                   0
Federal Securities Interest Revenue                                           (1,699)                            (1,316)                             (1,316)




                                                                                               -4-
                                                                       U.S Department of the Treasury                                         11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2010                               Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                     Previously Reported
(exchange)
Borrowing and Other Interest                                                       0                                  0                                      0
Revenue (Exchange)
Borrowings Gains                                                                   0                                  0                                   0
Other Revenue (without reciprocals)                                                0                                  0                                   0
Total Federal Earned Revenue                                                  (1,699)                            (1,316)                             (1,316)

Department Total Earned Revenue                                               (9,761)                           (11,743)                            (11,743)

Net Cost                                                                       2,147                             11,435                              11,435




                                                                                              -5-
                                                                       U.S Department of the Treasury                                        11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2010                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                    Previously Reported
Beginning Net Position                                                       22,665                             11,233                              11,405
Non-Federal Prior-Period
Adjustments
Non-Federal Prior Period                   I                                       0                                 0                                      0
Adjustments (not restated)
Changes in Accounting Principles                                                   0                                 0                                      0
Corrections of Errors                                                              0                                 0                                      0
Corrections of Errors - Years                                                      0                                 0                                      0
Preceding the Prior Year
Federal Prior-Period Adjustments
Change in Accounting Principles                                                    0                                 0                                      0
Corrections of Errors                                                              0                                 0                                      0
Corrections of Errors - Years                                                      0                                 0                                      0
Preceding the Prior Year
Adjusted Beginning Net Position                                              22,665                             11,233                              11,405
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                                      0                                 0                                      0
Witholdings
Corporation Income Taxes                                                           0                                 0                                      0
Unemployment Taxes                                                                 0                                 0                                      0
Excise Taxes                                                                       0                                 0                                      0
Estate and Gift Taxes                                                              0                                 0                                      0
Custom Duties                                                                      0                                 0                                      0
Other Taxes and Receipts                                                         (11)                                5                                      5




                                                                                              -6-
                                                                       U.S Department of the Treasury                                        11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2010                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                       2009-SEPTEMBER                    Previously Reported
Miscellaneous Earned Revenue                                                       0                                 0                                      0
Total Non-Federal Nonexchange                                                    (11)                                5                                      5
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                0                                 0                                      0
(nonexchange)
Borrowing and other interest revenue                                               0                                 0                                      0
(nonexchange)
Benefit Program Revenue                                                            0                                 0                                      0
(nonexchange)
Other taxes and receipts                                                           0                                 0                                      0
Total Federal Nonexchange Revenue                                                  0                                 0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                                0                                 0                                      0
(rescissions and other adjustments)
Appropriation of unavailable special                                               0                                 0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                               0                                 0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                     0                                 0                                      0
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                    0                                 0                                      0
unexpended appropriations and




                                                                                              -7-
                                                                       U.S Department of the Treasury                                        11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2010                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                        2009-SEPTEMBER                   Previously Reported
financing sources
Expenditure transfers-in of financing                                               0                                0                                      0
sources
Expenditure Transfers-out of                                                        0                                0                                      0
financing sources
Nonexpenditure Transfers-In of                                                      0                                0                                      0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                0                                      0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                0                                      0
the General Fund
Accrual for Amounts to be Collected                                                 0                                0                                      0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                                   0                                0                                      0
Total Budgetary Financing Sources                                                   0                                0                                      0

Other Financing Sources:
Transfers-in Without Reimbursement                                                  0                                0                                      0
Transfers-out Without                                                               0                                0                                      0
Reimbursement
Imputed Financing Source                                                           (6)                              (8)                                 (8)
Non-Entity Collections Transferred                                                  0                                0                                   0
to the General Fund
Accrual for Non-entity Amounts to                                                   0                                0                                      0
be Collected and Transferred to the




                                                                                               -8-
                                                                       U.S Department of the Treasury                                        11-15-2010 15:56:19
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2010                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2010-SEPTEMBER                        2009-SEPTEMBER                   Previously Reported
General Fund
Other non-budgetary financing                                                       0                                0                                      0
sources
Total Other Financing Sources                                                      (6)                              (8)                                 (8)


Net Cost                                                                       2,147                            11,435                              11,435

Ending Net Position Balance                                                  24,795                             22,665                              22,837




                                                                                               -9-
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




             Section V

   GF003G – Closing Package
     Line Reclassification
       Summary Report
                                                                 U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 2   Cash and cash equivalents                                                          A      D       B                     4,448                  3,752
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                           N                 4,399                  3,706                      3,706                     0
Fund Balance with Treasury                               F                     1                      1                          1                     0
Federal Investments                                      F                    48                     45                         45                     0
Total:                                                                     4,448                  3,752                      3,752                     0
Line Agency Line Description                                                  Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 3   Securities lending collateral (Notes 3 and 5)                                      A      D       N                     5,791                  2,507
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                 5,791                  2,507                      2,507                     0
Total:                                                                     5,791                  2,507                      2,507                     0

Line Agency Line Description                                                  Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 5   Fixed maturity securities                                                          A      D       B                    39,631                 33,742
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Federal Investments                                      F                21,130                 18,174                     18,002                   172
Debt and Equity Securities                               N                18,526                 15,595                     15,476                   119
Derivative Assets                                        N                   (25)                   (27)                         0                   (27)


                                                                               -1-
                                                             U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                     Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 5 Fixed maturity securities                                                        A    D        B                    39,631                  33,742
Total:                                                                 39,631                  33,742                  33,478                    264




Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 6   Equity securities                                                              A      D       N                    22,393                 22,954
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                22,393                 22,954                     24,133                 (1,179)
Total:                                                                22,393                 22,954                     24,133                 (1,179)

Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 7   Private equity                                                                 A      D       N                     2,050                  1,237
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                 2,050                  1,237                          0                  1,237
Total:                                                                 2,050                  1,237                          0                  1,237




                                                                           -2-
                                                                 U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 8   Real estate and real estate investment trusts                                      A      D       N                      459                     596
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                  459                    596                        596                      0
Total:                                                                      459                    596                        596                      0

Line Agency Line Description                                                  Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 9   Other                                                                              A      D       N                       17                     507
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                   17                    507                        653                   (146)
Total:                                                                       17                    507                        653                   (146)

Line Agency Line Description                                                  Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                      Type
 12 Sponsors of terminated plans                                                        A      D       N                       11                      85
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                            N                   11                     85                         85                      0
Total:                                                                       11                     85                         85                      0




                                                                               -3-
                                                             U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 13 Premiums (Note 11)                                                              A      D       N                      756                     603
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                  756                    603                        603                      0
Total:                                                                  756                    603                        603                      0

Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 14 Sale of securities                                                              A      D       N                     1,589                  1,829
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                 1,589                  1,829                       195                   1,634
Total:                                                                 1,589                  1,829                       195                   1,634

Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 15 Derivative contracts (Note 4)                                                   A      D       N                       78                      69
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   76                     68                       2,860                 (2,792)
Derivative Assets                                    N                    2                      1                           0                      1
Total:                                                                   78                     69                       2,860                 (2,791)




                                                                           -4-
                                                             U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 16 Investment income                                                               A      D       B                      430                     410
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                  F                  176                    192                        192                      0
Accounts and Taxes Receivable                        N                    3                      1                           1                     0
Debt and Equity Securities                           N                  251                    217                        217                      0
Total:                                                                  430                    410                        410                      0
Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 17 Other                                                                           A      D       N                        5                          3
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   5                      3                            3                     0
Total:                                                                   5                      3                            3                     0

Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 19 Capitalized assets, net                                                         A      D       N                       32                      29
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                        N                   32                     29                         29                      0
Total:                                                                   32                     29                         29                      0



                                                                           -5-
                                                                U.S. Department of the Treasury                                      11/15/2010 16:02:01
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                       Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 24 Trusteed plans                                                                      L      C      N                    88,022                  80,507
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                 88,022                 80,507                    80,507                      0
Total:                                                                   (88,022)               (80,507)                  (80,507)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 25 Plans pending termination and trusteeship                                           L      C      N                       501                     601
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                  501                    601                        601                       0
Total:                                                                    (501)                  (601)                      (601)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                      Type
 26 Settlements and judgments                                                           L      C      N                        55                      58
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                   55                     58                         58                       0
Total:                                                                     (55)                   (58)                       (58)                      0




                                                                               -6-
                                                                U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2010                                  Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 27 Claims for probable terminations                                                     L      C     N                    1,445                   1,870
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2010-SEPTEMBER        2009-SEPTEMBER        Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities            N                    1,445                 1,870                    1,870                      0
Total:                                                                     (1,445)               (1,870)                  (1,870)                     0

Line Agency Line Description                                                   Status Account NB      F/N    2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 29 Present value of nonrecoverable future financial assistance (Note 7)                 L      C     N                    3,030                   2,296
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2010-SEPTEMBER        2009-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                      N                    3,030                 2,296                    2,296                      0
Total:                                                                     (3,030)               (2,296)                  (2,296)                     0

Line Agency Line Description                                                   Status Account NB      F/N    2010-SEPTEMBER           2009-SEPTEMBER
                                                                                       Type
 30 Derivative contracts (Note 4)                                                        L      C     N                       67                     111
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2010-SEPTEMBER        2009-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                      N                      55                   102                     3,014                  (2,912)
Derivative Liabilities                                 N                      12                     9                         0                       9
Total:                                                                       (67)                 (111)                   (3,014)                 (2,903)




                                                                                -7-
                                                               U.S. Department of the Treasury                                      11/15/2010 16:02:01
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                    Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 31 Due for purchases of securities                                                   L      C       N                     3,076                   1,922
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 3,076                  1,922                       172                    1,750
Total:                                                                  (3,076)                (1,922)                     (172)                   1,750

Line Agency Line Description                                                Status Account NB       F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 32 Payable upon return of securities loaned                                          L      C       N                     5,791                   2,507
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 5,791                  2,507                      2,507                      0
Total:                                                                  (5,791)                (2,507)                    (2,507)                     0

Line Agency Line Description                                                Status Account NB       F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 33 Securities sold under repurchase agreements                                       L      C       N                         0                     643
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                   0                     643                        643                       0
Total:                                                                     0                    (643)                      (643)                      0




                                                                             -8-
                                                             U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 34 Unearned premiums                                                               L      C       N                      395                     386
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Other Liabilities                                    N                  395                    386                        386                      0
Total:                                                                 (395)                  (386)                      (386)                     0

Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 35 Due for purchases of securities                                          I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Total:                                                                   0                      0                            0                     0


Line Agency Line Description                                              Status Account NB       F/N      2010-SEPTEMBER          2009-SEPTEMBER
                                                                                  Type
 36 Derivative contracts (Note 4)                                            I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER         2009-SEPTEMBER          Previously Reported      Line Item Changes
Total:                                                                   0                      0                            0                     0




                                                                           -9-
                                                             U.S. Department of the Treasury                                      11/15/2010 16:02:01
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                   Type
 37 Accounts payable and accrued expenses (Note 8)                                   L      C      B                       103                      87
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                     N                   88                      73                        73                       0
Other Liabilities                                    N                   14                      13                        13                       0
Benefit Program Contributions Payable                F                    1                       1                          1                      0
Total:                                                                 (103)                    (87)                      (87)                      0
Line Agency Line Description                                               Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                   Type
 39 Net position                                                                     E      C      B                   (24,795)                (22,665)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                     B                (24,795)                (22,665)                 (22,837)                   172
Total:                                                                 24,795                  22,665                   22,837                    172




                                                                           - 10 -
                                                               U.S. Department of the Treasury                                     11/15/2010 16:02:01
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                                 Fiscal Year: 2010                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 31 Total Costs                                                                      TC      D       B                   11,908                  23,178
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N       2010-SEPTEMBER          2009-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Costs                                        F                       6                       8                        8                      0
Buy/Sell Costs                                       F                       5                      (4)                      (4)                     0
Benefit Program Costs                                F                      21                      19                       19                      0
Federal Securities Interest Expense                  F                      54                     314                      314                      0
Non-Federal Gross Cost                               N                  11,822                  22,841                   22,841                      0
Total:                                                                  11,908                  23,178                   23,178                      0
Line Agency Line Description                                                Status Account NB       F/N     2010-SEPTEMBER           2009-SEPTEMBER
                                                                                    Type
 32 Total Revenue                                                                    TR      C       B                    9,778                  11,746
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2010-SEPTEMBER          2009-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Financing Source                               F                     6                        8                       8                      0
Federal Securities Interest Revenue (exchange)         F                 1,699                    1,316                   1,316                      0
Non-Federal Earned Revenue                             N                 8,062                   10,427                  10,427                      0
Other Taxes and Receipts                               N                    11                       (5)                     (5)                     0
Total:                                                                  (9,778)                 (11,746)                (11,746)                     0




                                                                             - 11 -
                                                             U.S. Department of the Treasury                                      11/15/2010 16:02:01
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                               Fiscal Year: 2010                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2010-SEPTEMBER           2009-SEPTEMBER
                                                                                   Type
 33 Net position, beginning of year                                                 BN      C      B                   (22,665)                (11,233)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2010-SEPTEMBER          2009-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                (22,665)                (11,233)                 (11,405)                   172
Total:                                                                 22,665                  11,233                   11,405                    172




                                                                           - 12 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




             Section VI

    GF004F – Trading Partner
     Summary Note Report
                                                             U.S.Department of the Treasury                                 11-15-2010 16:25:10
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                                Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2010-SEPTEMBER        2009-SEPTEMBER
 BS              Federal Investments                              A                   D                         21,178                18,219
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                21,178                       18,219                18,047                  172
                                  Total                         21,178                       18,219                18,047                  172


Agency FS Status CP Line Description                              Account Type        NB              2010-SEPTEMBER        2009-SEPTEMBER
 BS              Interest Receivable                              A                   D                           176                   192
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2010-SEPTEMBER      2009-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                   176                         192                   192                     0
                                  Total                            176                         192                   192                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                              11-15-2010 16:25:10
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2010-SEPTEMBER        2009-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                         1                     1
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 1                        1                     1                     0
                                  Total                             (1)                      (1)                   (1)                    0




                                                                          -2-
                                                               U.S.Department of the Treasury                                   11-15-2010 16:25:10
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2010                                 Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION              Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type        NB               2010-SEPTEMBER         2009-SEPTEMBER
 IS              Federal Securities Interest Revenue (exchange)     ER                  C                           1,699                  1,316
                                                                                   Variance:                               0                     0

Trading       Name                              Status 2010-SEPTEMBER        2009-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2000 Department of the Treasury                                  1,699                        1,316                   1,316                     0
                                  Total                           (1,699)                      (1,316)                (1,316)                    0


Agency FS Status CP Line Description                                Account Type        NB               2010-SEPTEMBER         2009-SEPTEMBER
 IS              Benefit Program Costs                              GC                  D                             21                     19
                                                                                   Variance:                               0                     0

Trading         Name                            Status 2010-SEPTEMBER        2009-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2400 Office of Personnel Management                                  15                           14                     14                     0
 9900 Treasury General Fund                                            6                            5                      5                     0
                                  Total                               21                           19                     19                     0




                                                                            -3-
                                                              U.S.Department of the Treasury                               11-15-2010 16:25:10
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2010                              Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB            2010-SEPTEMBER        2009-SEPTEMBER
 IS              Buy/Sell Costs                                    GC                  D                          5                     (4)
                                                                                  Variance:                           0                     0

Trading        Name                             Status 2010-SEPTEMBER       2009-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                      1                         2                     2                     0
 1601 Department of Labor                                             1                         1                     1                     0
 1800 United States Postal Service                                    2                         0                     0                     0
 2000 Department of the Treasury                                      0                        (8)                   (8)                    0
 4700 General Services Administration                                 1                         1                     1                     0
                                  Total                               5                        (4)                   (4)                    0

Agency FS Status CP Line Description                               Account Type        NB            2010-SEPTEMBER        2009-SEPTEMBER
 IS              Federal Securities Interest Expense               GC                  D                          54                   314
                                                                                  Variance:                           0                     0

Trading       Name                              Status 2010-SEPTEMBER       2009-SEPTEMBER           Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                     54                       314                   314                     0
                                  Total                              54                       314                   314                     0




                                                                           -4-
                                                             U.S.Department of the Treasury                              11-15-2010 16:25:10
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2010-SEPTEMBER        2009-SEPTEMBER
 IS              Imputed Costs                                    GC                  D                         6                     8
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 6                        8                     8                     0
                                  Total                              6                        8                     8                     0



Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2010                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2010-SEPTEMBER        2009-SEPTEMBER
 IS              Imputed Financing Source                         F                   C                         6                     8
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2010-SEPTEMBER      2009-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 6                        8                     8                     0
                                  Total                             (6)                      (8)                   (8)                    0




                                                                          -5-
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




             Section VII

  GF005F – Intragovernmental
Trading Partner Summary Report
                                          U.S.Department of the Treasury                                 11/15/2010 04:34:08
                                          Financial Management Service
                                      Governmentwide Financial Report System

                             GF005F - Intragovernmental Trading Partner Summary Report


Statement:   BALANCE SHEET                           Fiscal Year:   2010           Period:   SEPTEMBER



                                           No Record Found




                                                       -1-
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




            Section VIII

    GF006 – Financial Report
       (FR) Notes Report
                                                                                                                                                                                       11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                 Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    AR - Note 17

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: B             Section Name: Related Parties ¿ External to the Reporting Entity for      No Data Flag: YES         Line Attributes: Dollars
                                            the Financial Report                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                                   11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                      Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - Note 17

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to     1) Management evaluated subsequent events through November 12, 2010, the date the
                   the agencies audited financial statements being issued.                                           financial statements were available to be issued. Events or transactions occurring after
                                                                                                                     September 30, 2010, but prior to November 12, 2010, that provided additional evidence
                                                                                                                     about conditions that existed at September 30, 2010, for either the single-employer or
                                                                                                                     multiemployer program, have been recognized in the financial statements for the period
                                                                                                                     ended September 30, 2010.

                                                                                                                     For the single-employer program, subsequent to September 30, 2010, business and
                                                                                                                     financial condtions signifcantly improved for a sponsor of two large single-employer
                                                                                                                     plans which were classified as Probable at September 30, 2010. Had these plan
                                                                                                                     sponsor events occurred prior to FY 2010 year-end, PBGC's financial statements
                                                                                                                     would have reflected an improvement of $550 million in the single-employer Net loss of
                                                                                                                     $517 million, resulting in a Net gain of $33 million, and an increase in the Net position of
                                                                                                                     $550 million (from $(21,594) million to $(21,044) million).

                                                                                                                     For the multiemployer program, events or transactions that provided evidence about
                                                                                                                     conditions that did not exist at September 30, 2010, but arose before the financial
                                                                                                                     statements were available to be issued have not been recognized in the finacial
                                                                                                                     statements for the period ended September 30, 2010.
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).                2) There were no departures from GAAP for the end of fiscal year, September 30, 2010.
3                  Describe any change in accounting if a collecting entity adopts accounting standards that         3) There were no changes in accounting for the end of fiscal year, September 30, 2010.
                   embody a fuller application of accrual accounting concepts that differs from that prescribed
                   by the SFFAS no. 7, par.64.
4                  List all of the agency's components for which balances and activities are not combined into       4) There were no omissions of balances nor activity from PBGC's financial statements,
                   the agency's financial statements and, therefore, are not represented in the GFRS data.           all activity is represented in GFRS.
5                  List all of the agency's components for which balances and activities are combined into the       5) PBGC has two programs - The single-employer and the multiemployer program, in
                   agency's financial statements, and, therefore, are represented in the GFRS data.                  which both are combined on the agency's financial statements and, therefore,
                                                                                                                     represented in the GFRS data.
6                  Describe any additional significant accounting policies specific to your agency not included in   6) There is no additional information to report for the end of fiscal year, September 30,
                   GFRS GF006 ¿ FR Notes GFRS.                                                                       2010.
7                  Provide any other relevant information pertaining to the Federal Reserve Earnings.
8                  Describe the nature of the related party relationship and transactions pertaining to the
                   amount in the ¿Other Notes Info¿ tab, ¿Related party receivables¿ line.
9                  Describe the nature of the related party relationship and transactions pertaining to the
                   amount in the ¿Other Notes Info¿ tab, ¿Related party payables¿ line.
10                 Describe the ¿Other Notes Info¿ tab, ¿Related party operating revenue¿ transactions along
                   with the related party relationship and include transactions with zero or nominal balances,
                   guarantees, and other terms. Also, describe changes in related party terms.
11                 Describe the ¿Other Notes Info¿ tab, ¿Related party net cost of operations¿ transactions
                   along with the related party relationship and include transactions with zero or nominal
                   balances, guarantees, and other terms. Also, describe changes in related party terms.
12                 Describe related party economic dependency (that is, major customers, suppliers,
                   franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships


                                                                                                            -2-
                                                                                                                                                                            11/15/2010 16:39:55

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 01       Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                            Fiscal Year: 2010               Period: SEPTEMBER
  Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    AR - Note 17

 Status: Complete                      The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Text Data
Line             Question                                                                                       Answer
                 and transactions included in the ¿Other Notes Info¿ tab, ¿Related party economic
                 dependency transactions¿ section
13               Provide details on the investments in related parties.
14               Provide details on related party leases.
15               Describe control relationships with entities under common ownership, management control,
                 and conservatorship if the operating results or financial position could be significantly
                 impacted as a result of the relationship. Include control relationships with and without
                 transactions.
16               Provide any other useful information on related parties.




                                                                                                      -3-
                                                                                                                                                                                               11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                Fiscal Year: 2010                 Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - MD&A Invstment Actvty & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                  Type
Cash and Other Monetary Assets                                             D        A                     4,399                   3,706
                                                                               Variance:                      0                       0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description             2010 - SEPTEMBER            2009 - SEPTEMBER               Previously Rptd           Line Item Changes
 3           Other cash - not                                    1                          3                            3                             0
             restricted
 4           Other cash - restricted                        4,398                       3,703                       3,703                              0
 5           International monetary
             assets
 7           Foreign currency
             Total                                           4,399                       3,706                        3,706                            0
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Other cash - not restricted (2010 -          Please provide explanations for any amounts that have              This change is directly attributable to PBGC's investment activity.
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other cash - restricted (2010 -              Please provide explanations for any amounts that have              This change is directly attributable to PBGC's investment activity and cash
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between         received from newly trusteed plans.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -4-
                                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

    Note: 02           Cash and Other Monetary Assets                                                                                    Fiscal Year: 2010                 Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:       AR - MD&A Invstment Actvty & Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                   1) Relates to entity cash as defined in FASAB. This cash is derived from a cash
                                                                                                                       lockbox, whereas premiums are paid by sponsors of defined benefit plans.
2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and       2) Relates to non-entity cash as defined in FASAB. This cash belongs to the trust fund,
                   any statutory authority (law, regulation, or agreement).                                            as the assets of trusteed plans are transferred to PBGC, as authorized by ERISA.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    3) Restricted cash held by PBGC's trust fund is both for the single-employer and
                   held.                                                                                               multiemployer programs.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     4) Yes, PBGC's restricted cash is held in a U.S. financial institution and is not in a
                   designated bank?                                                                                    Treasury designated bank.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   5) PBGC's restricted cash is invested in both federal and non-federal securities, within
                   Bureau of the Public Debt (BPD)security, agency security, and/or non-Federal security?              PBGC's trust fund.
6                  Describe the nature of the amount in the line item "Foreign currency."
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury
                   exchange rate or prevailing market rate).
9                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly      9) Cash includes cash on hand and demand deposits. Cash equivalents are
                   the significant accounting policies pertaining to this note.                                        investments with orginal maturities of one business day and highly liquid investments
                                                                                                                       that are readily convertible into cash within one business day.




                                                                                                               -5-
                                                                                                                                                                                              11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                 Fiscal Year: 2010                Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        A/R & MD&A Undr Wrtng Actvty

  Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                  Type
Accounts and Taxes Receivable                                              D        A                     2,440                   2,589
                                                                               Variance:                      0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd           Line Item Changes
 1           Accounts receivable,                            3,487                      3,408                      4,566                       -1,158
             gross
 2           Related interest                                 175                          150                          150                            0
             receivable - accounts
             receivable
 3           Penalties, fines, and                              15                           8                            8                            0
             administrative fees
             receivable
 4           Less: allowance for                            -1,060                      -827                          -827                             0
             loss on accounts
             receivable
 5           Less: allowance for                             -171                       -147                          -147                             0
             loss on interest
             receivable
 6           Less: allowance for                                -6                          -3                           -3                            0
             loss on penalties,
             fines, and admin. fees
             rec.
             Total                                           2,440                      2,589                         3,747                    -1,158
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Related interest receivable - accounts       Please provide explanations for any amounts that have              This change is mainly attributable to an increase in accrued interest income
 receivable (2010 - SEPTEMBER)                                  changed by 10% or more and or greater than 500,000 between         receivable in financial assistance for the multiemployer program.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -6-
                                                                                                                                                                                               11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 03          Accounts and Taxes Receivable                                                                                   Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       A/R & MD&A Undr Wrtng Actvty

 Status: Complete                        The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the method(s) used to calculate the allowances on accounts receivable.                  The Allowance for Premium Accounts Receivable is calculated in two ways 1) A
                                                                                                                    Specific Reserve is at 100% of A/R (accounts receivable) aged greater than six years
                                                                                                                    for Premium Statement of Accounts (SOA) and on A/R balances over $500,000 on a
                                                                                                                    case by case basis. 2) A General Reserve is applied for the remaining A/R using a five
                                                                                                                    year rolling average of collection rates for SOA. The allowance for sponsors of
                                                                                                                    terminated plans is determined on a plan by plan basis through a collectability analysis
                                                                                                                    performed on plan sponsors.
3                  Explain any material difference between the balance of accounts receivable and the               3) For the period ended, September 30, 2010, there were no material differences
                   amounts reported on the Treasury Report on Receivables.                                          between accounts receivable and the Treasury Report on receivables.
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   4) Under the accrual basis of accounting, receivables represents amounts due from
                   the significant accounting policies pertainnig to this note.                                     others. They are accounted for as assets from the time that the events giving rise to
                                                                                                                    such claims occur until the time they are collected.
                                                                                                                    Receivables are reduced by an allowance for estimated uncollectible amounts that are
                                                                                                                    not expected to be collected in one year are adjusted by discounting estimated future
                                                                                                                    collections by an imputed rate of interest at the transaction date.




                                                                                                           -7-
                                                                                                                                                                                                11/15/2010 16:39:55

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                       Fiscal Year: 2010                  Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:       AR - MD&A Part IV.B and Note 7

  Status: Complete                         The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                 Type
Loans Receivable and mortgage backed securities                           D        A                         0                       0
                                                                              Variance:                      0                       0          Rounding Method: Millions                 Decimal: Zero
Line Status Line Description            CY: Face Value of Loans      CY: Long-Term Cost of           CY Net Loans           PY: Face Value of Loans        PY: Long-Term Cost of                PY Net Loans
                                               Oustanding                       Loans                                              Oustanding                         Loans
 14          Multiemployer                                  485                        485                              0                        387                         387                                     0
             Financial Assistance -
             Revolving
 15
 16
 17
 18
 19          All other loans
             receivable
             Total                                            485                         485                           0                          387                            387                                0
Threshold

 Line Description                                              Question                                                             Answer
 Line Item Notes - Multiemployer Financial Assistance -        Please provide explanations for any amounts that have               This change is attributable to an increase in requests for financial assistance
 Revolving (CY: Long-Term Cost of Loans)                       changed by 10% or more and or greater than 500,000 between          from the multiemployer plan sponsors.
                                                               the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Multiemployer Financial Assistance -        Please provide explanations for any amounts that have               This change is attributable to an increase in requests for financial assistance
 Revolving (CY: Face Value of Loans Oustanding)                changed by 10% or more and or greater than 500,000 between          from the multiemployer plan sponsors.
                                                               the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      -8-
                                                                                                                                                                                                      11/15/2010 16:39:55

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                              Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        AR - MD&A Part IV.B and Note 7

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                                 Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                            Decimal: Zero
Line Status Line Description            NB       2010 - SEPTEMBER             2009 - SEPTEMBER                   Previously Rptd        Line Item Changes
14             Multiemployer           Debit                          97                           86                          86                             0
               Financial
               Assistance -
               Revolving
15                                     Debit
16                                     Debit
17                                     Debit
18                                     Debit
19             All other loans         Debit
               receivable
20             Total                   N/A                            97                           86                          86                             0
       Section: B                Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.           No Data Flag: YES              Line Attributes: Dollars
                                               91)                                                                                    Rounding Method: Millions                            Decimal: Zero
Line Status Line Description            NB       2010 - SEPTEMBER             2009 - SEPTEMBER                   Previously Rptd        Line Item Changes
 1             Balances for            Debit
               property held Pre-
               1992
 2             Balances for            Debit
               property held Post-
               1991




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Provide a broad description of foreclosed property.
 2                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        PBGC provides financial assistance in the form of loans to insolvent multiemployer
                     the significant accounting policies pertaining to this note.                                          plans to enable the plan to pay guaranteed benefits. An allowance is set up given that
                                                                                                                           repayment of these loans is not expected.




                                                                                                             -9-
                                                                                                                                                                                 11/15/2010 16:39:55

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          0                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2010 - SEPTEMBER             2009 - SEPTEMBER                Previously Rptd        Line Item Changes
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                                    - 10 -
                                                                                                                                                                                      11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04B         Loan Guarantees                                                                                                  Fiscal Year: 2010          Period: SEPTEMBER
  Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

      Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description        NB          CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D     PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                            Loans Outstanding D             by the Government D                                         Outstanding D        the Government D
13                                  N/A
14                                  N/A
15                                  N/A
16                                  N/A
17                                  N/A
18          All other loans         N/A
            guarantee liabilities
19          Total:                  N/A
Tab: Text Data                        No Data Flag: YES
 Line              Question                                                                                             Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.




                                                                                                           - 11 -
                                                                                                                                                                                11/15/2010 16:39:55

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                         Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          0                  0
                                                                            Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2010 - SEPTEMBER           2009 - SEPTEMBER                Previously Rptd        Line Item Changes
 1          Gross Inventory -
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used
 6          Total allowance for
            inventories and related
            property
            Total




                                                                                                   - 12 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                             Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating material
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit
                and supplies held
                for use
 6              Operating materials     Debit
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit
11              Other related           Debit
                property
12              Total allowance for     Credit
                inventories and
                related property
13              Total inventories        N/A
                and related
                property, net




                                                                                                           - 13 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                          Fiscal Year: 2010         Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES         Line Attributes: Dollars
                                             by Trading Patrner                                                              Rounding Method: Millions                Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                        No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Seized property      Debit
 2              Forfeited property   Debit
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                       - 14 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                               Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                  No Data Flag: YES          Line Attributes: Units


Line Status Line Description          NB      2010 - SEPTEMBER                2009 - SEPTEMBER                   Previously Rptd    Line Item Changes
 1              Seized property      N/A
 2              Forfeited property   N/A
 3              Goods held under     N/A
                price support and
                stabilization
                programs



Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   Method used to calculate allowance for each category of inventory.
 2                   Significant accounting principles and methods of applying those principles.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 15 -
                                                                                                                                                                                          11/15/2010 16:39:55

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                            Fiscal Year: 2010                  Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:         AR - Note 2 Depreciation and Amortization

  Status: Complete                       The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                          32                 29
                                                                            Variance:                        0                  0             Rounding Method: Millions              Decimal: Zero
Line Status Line Description                     CY PP&E            CY Accum. Depr.                CY Net PP& E                     PY PP&E              PY Accum. Depr.                   PY Net PP&E
 1          PP&E - balance                                  83                          54                             29                       73                            41                          32
            beginning of year
 2          Prior-period
            adjustments (not
            restated)
 3          Capitalized                                     14                                                         14                       10                                                        10
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Deletions from the
            Balance Sheet
 6          Revaluations
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     11                            -11                                                     13                         -13
            on
            Total                                            97                          65                            32                         83                          54                          29




                                                                                                   - 16 -
                                                                                                                                                                                                   11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Gross cost for PP&E for each category                                                 Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB       2010 - SEPTEMBER             2009 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Buildings,              Debit
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                          17                          17                         17                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit
                progress
 4              Land and Land           Debit
                Rights
 5              Internal use            Debit                          80                          66                         66                          0
                software
 6              Assets under            Debit
                capital lease
 7              Leasehold               Debit
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                            97                          83                         83                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Internal use software (2010 -                   Please provide explanations for any amounts that have             This is attributable to an increase in the development of internal use
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                software.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)




                                                                                                             - 17 -
                                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                  Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B               Section Name: Accumulated Depreciation/Amortization                                                   Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Buildings,              Credit
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                          16                         16                          16                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                          49                         38                          38                          0
                software
 4              Assets under            Credit
                capital lease
 5              Leasehold               Credit
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                           -65                        -54                         -54                          0
                depreciation/amorti
                zation
       Section: C               Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              General Services        Debit
                Administration
 2              Department of           Debit
                Defense
 3              Department of the       Debit
                Interior
 4              Department of           Debit
                Justice
 5              National                Debit
                Aeronautics and
                Space
                Administration



                                                                                                           - 18 -
                                                                                                                                                                                                    11/15/2010 16:39:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                    Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - Note 2 Depreciation and Amortization

  Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd         Line Item Changes
 6              All other             Debit
                departments
 7              Total capitalized      N/A
                assets from
                Federal agencies




       Section: D              Section Name: Gain/Loss on Sale/Disposition                              No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd         Line Item Changes
 1              Gain/loss on          Credit
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are
                     included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).
 2                   Provide any other relevant information pertaining to this note and any material changes from        PBGC calculates depreciation on the straight-line basis over estimated useful lives of 5
                     the prior years' depreciation methods and capitalization thresholds. In addition, describe          years for equipment and 10 years for furniture and fixtures. PBGC calculates
                     briefly the significant accounting policies pertaining to this note.                                amortization for capitalized software, which includes certain costs incurred for
                                                                                                                         purchasing and developing for internal use, on the straight-line basis over estimated
                                                                                                                         useful lives not to exceed 5 years, commencing on the date that the Corporation
                                                                                                                         determines that the internal-use software is implemented.




                                                                                                           - 19 -
                                                                                                                                                                                              11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2010                 Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - MD&A Section VIII & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    49,487                   43,613
                                                                               Variance:                      0                        0           Rounding Method: Millions             Decimal: Zero
Line Status Line Description              2010 - SEPTEMBER           2009 - SEPTEMBER               Previously Rptd            Line Item Changes
 1              Fixed/Debt Securities                        4,952                      2,974                       2,974                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities                         199                           48                            48                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities                        2,733                      2,728                       2,728                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities                      10,072                       8,406                       8,314                            92
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                               570                       1,439                       1,412                            27
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                            1,760                         717                           717                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities                          19,486                      21,768                      21,710                            58
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                            3,197                      1,706                       1,706                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 20 -
                                                                                                                                                                                               11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2010                 Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:       AR - MD&A Section VIII & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2010 - SEPTEMBER            2009 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other                                           6,518                      3,827                       3,973                        -146
             Total                                          49,487                     43,613                      43,582                           31
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             In 2009, the Board changed the policy of the prior Board and established
 50-1 and 320-10-50-9): Commercial Securities (2010 -           changed by 10% or more and or greater than 500,000 between        temporary guidance pending a full review of investment policy. Since then,
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        PBGC has been implementing the interim guidance, which provides for a
                                                                                                                                  gradual return to 26.5%, the percentage of equities held in March 2009,
                                                                                                                                  taking into account market conditions.
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             In 2009, the Board changed the policy of the prior Board and established
 50-1 and 320-10-50-9):Corporate and other bonds (2010 -        changed by 10% or more and or greater than 500,000 between        temporary guidance pending a full review of investment policy. Since then,
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        PBGC has been implementing the interim guidance, which provides a
                                                                                                                                  gradual return to 26.5%, the percentage of equities held in March 2009,
                                                                                                                                  taking into account market conditions.

                                                                                                                                  The line item change of $92 million is due to a reclass of securities on
                                                                                                                                  PBGC's Balance Sheet.
 Line Item Notes - All other Fixed Income/Debt Securities       Please provide explanations for any amounts that have             In 2009, the Board changed the policy of the prior Board and established
 (FASB ASC 320-10-50-1 and 320-10-50-9) All:Other               changed by 10% or more and or greater than 500,000 between        temporary guidance pending a full review of investment policy. Since then,
 fixed/debt securities (2010 - SEPTEMBER)                       the current fiscal year and prior fiscal year. (Unaudited)        PBGC has been implementing the interim quidance, which provides for a
                                                                                                                                  gradual return to 26.5%, the percentage of equities held in March 2009,
                                                                                                                                  taking into account market conditions.
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             In 2009, the Board changed the policy of the prior Board and established
 1 and 320-10-50-9): Common Stocks (2010 -                      changed by 10% or more and or greater than 500,000 between        temporary guidance pending a full review of investment policy. Since then,
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        PBGC has been implementing the interim guidance, which provides for a
                                                                                                                                  gradual return to 26.5%, the percentage of equities held in March 2009,
                                                                                                                                  taking into account market conditions.
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             In 2009, the Board changed the policy of the prior Board and established
 1 and 320-10-50-9): Unit Trusts (2010 - SEPTEMBER)             changed by 10% or more and or greater than 500,000 between        temporary guidance pending a full review of investment policy. Since then,
                                                                the current fiscal year and prior fiscal year. (Unaudited)        PBGC has been implementing the interim guidance, which provides for a
                                                                                                                                  gradual return to 26.5%, the percentage of equities held in March 2009,
                                                                                                                                  taking into account market conditions.

                                                                                                                                  The $58 million line item change is due to a reclass of securities on PBGC's
                                                                                                                                  Balance Sheet.
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             In 2009, the Board changed the policy of the prior Board and established a
 1 and 320-10-50-9): All Other Equity Securities (2010 -        changed by 10% or more and or greater than 500,000 between        temporary guidance pending a fulll review of investment policy. Since then,
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        PBGC has been implementing the interim guidance, which provides for a
                                                                                                                                  gradual return to 26.5%, the percentage of equities held in March 2009,
                                                                                                                                  taking into account market conditions.



                                                                                                      - 21 -
                                                                                                                                                                                        11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities       No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment     PY Basis (Costs) D             PY Unamortized          PY Net Investment
                                                                             Premium/Discount D                                                            Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A
                Maturity Securities




                                                                                                        - 22 -
                                                                                                                                                                                       11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss        PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A
                for-Sale Securities




                                                                                                        - 23 -
                                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                     Fiscal Year: 2010                   Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:          AR - MD&A Section VIII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                                               Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value          PY Basis (Costs) D           PY Unrealized Gain/Loss         PY Market Value
                                                                                               D                                                                                       D
 1              Fixed/Debt              N/A                       4,492                        460                         4,952                     2,720                            254                      2,974
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A                         199                                                     199                            48                                                     48
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A                       2,681                         52                         2,733                     2,845                           -117                      2,728
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A                       9,166                        906                     10,072                        8,408                             -2                      8,406
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                         560                         10                          570                      1,349                             63                      1,412
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A                       1,696                         64                         1,760                          805                         -88                        717
                Common stocks
 7              Equity Securities:      N/A                      13,037                      6,449                     19,486                       16,566                          5,202                     21,768
                Unit trusts
 8              Equity Securities:      N/A                       3,172                         25                         3,197                     1,928                           -222                      1,706
                All other equity
                securities
 9              Other                   N/A                       6,505                         13                         6,518                     3,840                            -13                      3,827
10              Total Trading           N/A                      41,508                      7,979                     49,487                       38,509                          5,077                     43,586
                Securities




                                                                                                        - 24 -
                                                                                                                                                                                        11/15/2010 16:39:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D              Section Name: Other Information                                                                   Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd      Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 25 -
                                                                                                                                                                                               11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                        Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    AR - MD&A Section VIII & Note 3

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D               Section Name: Other Information                                                                         Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd           Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit                        2,540                      5,730                         5,730
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 26 -
                                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                        Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - MD&A Section VIII & Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     The majority of the amount in line 5 consists of $481 million in pooled funds - fixed
                   9.                                                                                                income.
                                                                                                                     The majority of the amount in line 8 consists of $2,050 million in private equity and
                                                                                                                     $1,083 million in foreign investments - equity.
                                                                                                                     The majority of the amount in line 9 consists of $5,791million of security lending
                                                                                                                     collateral and $459 million for pooled funds - real estate.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       The majority of the amount on line 5 consists of $476 million (cost) for pooled funds -
                   and 9 in Sections A through C.                                                                    fixed income.
                                                                                                                     The majority of the amount on line 8 consists of $2,169 million (cost) private equity and
                                                                                                                     $940 million (cost) in foreign investments - equity.
                                                                                                                     The majority of the amount on line 9 consists of $5,791 million (cost) security lending
                                                                                                                     collateral and $441 million (cost) pooled funds - real estate.
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-
                   maturity securities (FASB ASC 320-10-50-10).
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    In accordance with the FASAB Accounting Standards Codifications Sections 815, 820,
                   the significant accounting policies pertaining to this note.                                      and 960 (formerly FAS 157 and FAS 35), investments, whether equity or debt
                                                                                                                     securities, real estate, or other, are presented at their fair value at the financial
                                                                                                                     statement date. The fair value of an investment is the amount that PBGC could
                                                                                                                     reasonably expect to receive for it in a current sale between a willing buyer and a willing
                                                                                                                     seller that is other than in a forced or liquidation sale.




                                                                                                           - 27 -
                                                                                                                                                                                              11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08            Other Assets                                                                                                         Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                 Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2010 - SEPTEMBER          2009 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                              0                    0
                                                                                    Variance:                           0                    0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2010 - SEPTEMBER               2009 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1             Advances and
               prepayments
 2             FDIC Receivable from
               Resolution Activity
 3             NCUA Loans
 4             Regulatory Assets
 5             Other assets
               Total

Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled
                     "Other Assets" on the "Line Item Notes" tab.
 3                   Provide any relevant information pertaining to this note. At a minimum, describe briefly the
                     significant accounting policies pertaining to this note.




                                                                                                              - 28 -
                                                                                                                                                                                                       11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                                      Fiscal Year: 2010                  Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                  Agency Notes:       AR - Note 8

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2010 - SEPTEMBER          2009 - SEPTEMBER
                                                                                    Type
Accounts Payable                                                             C        L                             88                     73
                                                                                 Variance:                           0                      0          Rounding Method: Millions                  Decimal: Zero
Line Status Line Description           2010 - SEPTEMBER              2009 - SEPTEMBER                   Previously Rptd           Line Item Changes
 1          Accounts Payable                                    88                            73                            73                               0
            Total                                               88                            73                            73                               0
Threshold

 Line Description                                               Question                                                                   Answer
 Line Item Notes - Accounts Payable (2010 - SEPTEMBER)          Please provide explanations for any amounts that have                     This change is due to a $9 million increase in accounts payable, $7 million
                                                                changed by 10% or more and or greater than 500,000 between                increase in accrued expenses, offset by a $ 1 million decrease to accrued
                                                                the current fiscal year and prior fiscal year. (Unaudited)                funded payroll and leave.
Tab: Text Data
 Line              Question                                                                                               Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly         The liability to be recorded shall reflect the amount of the invoice received but not paid.
                   the significant accounting policies pertaining to this note.                                           An accrued expense shall be recorded when goods or services have been received and
                                                                                                                          an account payable has not been established.




                                                                                                           - 29 -
                                                                                                                                                                                               11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                     Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       AR - Note 3

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Investments in Federal Debt securities                                                      Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium               CY Net Investment              PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                                  investment D                         C
17             Pension Benefit      N/A                        20,356                         1,273                          2,095                    21,178                     18,301                     2,553
               Guaranty
               Corporation Fund
23                                  N/A
24                                  N/A
25                                  N/A
26             All other programs   N/A
               and funds
27             Total                N/A                        20,356                        -1,273                          2,095                    21,178                     18,301                    -2,553

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
17             Pension Benefit       N/A                         2,299                       18,047
               Guaranty
               Corporation Fund
23                                   N/A
24                                   N/A
25                                   N/A
26             All other programs    N/A
               and funds
27             Total                 N/A                         2,299                       18,047
       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES             Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                            Rounding Method: Millions                        Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium                CY Net Investment             PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                                  investment D                         C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A



                                                                                                           - 30 -
                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B           Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES     Line Attributes: Dollars
                                          Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                     Decimal: Zero
                                          Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A




                                                                                                          - 31 -
                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                     Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 32 -
                                                                                                                                                                                 11/15/2010 16:39:55

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 10B       Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2010              Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                      The accompanying notes are an integral part of these financial statements.           I = Inactive Line


      Section: C          Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                        Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                     Decimal: Zero
Line Status Line Description      NB            PY Unamortized             PY Net Investment
                                                   premium C
 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
13                                N/A
14                                N/A
15                                N/A
16           Total                N/A
      Section: D          Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined                 Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description      NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D           PY Par Value of the PY Unamortized Discount
                                                investment D                       Discount C                       D                                       investment D                         C
26      I    Total               N/A

Line Status Line Description      NB            PY Unamortized            PY Net Investment D
                                                   premium D
26      I    Total                N/A




                                                                                                        - 33 -
                                                                                                                                                                                               11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                                   Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - Note 3

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   Debt Securities shall be recorded at face value. A premium or discount shall be
                 the significant accounting policies pertaining to this note.                                     recorded equal to the difference between face value and the cost basis.

                                                                                                                  Discounts and premiums on debt securities held in the revolving fund shall be accreted
                                                                                                                  or amortized by the effective interest method to arrive at a constant rate of interest for
                                                                                                                  the security. The straight-line method shall be acceptable only if it results in a
                                                                                                                  significant difference from use of the interest method. The premium/discount shall be
                                                                                                                  amortized/accreted over the term of the security which will typically be through to
                                                                                                                  maturity date, or call date, whichever is more appropriate.

                                                                                                                  Discounts and premiums on the trust fund fixed debt securities are not acceted or
                                                                                                                  amortized. These securities and all other securities are marked to market.




                                                                                                         - 34 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                           Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      N/A

  Status: Complete                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account    2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                               Type
Federal Employee and Veteran Benefits Payable                          C         L                         0                  0
                                                                            Variance:                      0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2010 - SEPTEMBER            2009 - SEPTEMBER               Previously Rptd        Line Item Changes
 1          Pension and accrued
            benefits
 2          Post-retirement health
            and accrued benefits
 3          Veteran's
            compensation and
            burial benefits
 4          Life Insurance and
            accrued benefits
 5          FECA Benefits
 6          Liability for other
            retirement and
            postemployment
            benefits
            Total




                                                                                                  - 35 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions             Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Assumption              Credit
                Change Liability
 5              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 6              Interest on pension     Credit
                liability during the
                period
 7              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 8              Actuarial               Credit
                (gains)/losses (from
                experience)
 9              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
10              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
11              Less Benefits Paid      Debit
12              Pension and              N/A
                Accrued Benefits


                                                                                                           - 36 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A                  Section Name: Pension and Accrued Benefits Liability-To be            No Data Flag: YES         Line Attributes: Dollars
                                                 completed for the amount entered for pension and                                Rounding Method: Millions             Decimal: Zero
                                                 accrued benefits in the "Line Item Notes" tab
Line Status Line Description              NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
                Liability-end of
                period




       Section: B                  Section Name: Pension Liability Long-Term Significant Assumptions     No Data Flag: YES         Line Attributes: Percent
                                                 Used in 2010 and 2009 Valuation
Line Status Line Description              NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest          N/A
 2              Rate of inflation         N/A
 3              Projected salary          N/A
                increases




       Section: C                  Section Name: Postretirement Health and Accrued Benefits              No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description              NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 37 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Change in medical       Credit
                cost trend rate
                assumption
                (gains)/losses
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 9              Total                    N/A
                postretirement
                health benefits
                expense
10              Less claims paid        Debit
11              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the 2010 and 2009
                                               Valuation
Line Status Line Description             NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                health care cost
                trend
 3              Single equivalent        N/A
                rate of health care
                cost trend




                                                                                                           - 38 -
                                                                                                                                                                                11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2010          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: G             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)




                                                                                                        - 39 -
                                                                                                                                                                         11/15/2010 16:39:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2010      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in
                   determining pension liability and
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining
                   pension liability and the
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in
                   determining the postretirement
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the
                   postretirement health
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for ¿Line Item Notes¿ tab numbers 4, 5,
                   and 6.
11                 Provide the source(s) for the components of pension expense entered in Section A.
12                 Provide the source(s) for the interest rate entered in Section B.
13                 Provide the source(s) for the components of postretirement expense entered in Section C.
14                 Provide the source(s) for the interest rate entered in Section D.
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant
                   accounting policies pertaining to this note.




                                                                                                             - 40 -
                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2010 - SEPTEMBER          2009 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 41 -
                                                                                                                                                                                      11/15/2010 16:39:55

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2010          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2010 - SEPTEMBER               2009 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 42 -
                                                                                                                                                                                          11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2010 - SEPTEMBER          2009 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2010 - SEPTEMBER              2009 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 43 -
                                                                                                                                                                                    11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                               Fiscal Year: 2010                Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:        A/R - MD&A and Note 2

  Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2010 - SEPTEMBER     2009 - SEPTEMBER
                                                                                    Type
Insurance and Guarantee Program Liabilities                                 C         L                 90,023                83,036
                                                                                 Variance:                   0                     0           Rounding Method: Millions        Decimal: Zero
Line Status Line Description            2010 - SEPTEMBER               2009 - SEPTEMBER            Previously Rptd         Line Item Changes
 1              Single employer                            90,022                       83,035                    83,035                            0
 2              Multiemployer                                   1                            1                         1                            0
 6              Other Insurance
                Programs
 7
 8
            Total                                           90,023                      83,036                    83,036                            0




                                                                                                     - 44 -
                                                                                                                                                                                                 11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 14          Insurance and Guarantee Program Liabilities                                                                      Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       A/R - MD&A and Note 2

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a description for the type of insurance or guarantee programs identified in the "Line    PBGC operates two separate programs for defined benefit plans. PBGC's single-
                   Item Notes" tab.                                                                                 employer program guarantees payment of basic pension benefits when underfunded
                                                                                                                    plans terminate. By contrast, in the multiemployer program, the insured event is plan
                                                                                                                    insolvency. PBGC's multiemployer program financially assists insolvent covered plans
                                                                                                                    to pay benefits at the statutorily guaranteed level. By law, the two programs are funded
                                                                                                                    and administered separately, and their financial conditions, results of operations, and
                                                                                                                    cash flows are reported separately.

                                                                                                                    PBGC's multiemployer program provides financial assistance through loans to insolvent
                                                                                                                    plans to enable them to pay guaranteed benefits. A multiemployer plan is pension plan
                                                                                                                    sponsored by two or more unrelated employers who have signed a collective bargaining
                                                                                                                    agreement with one or more unions.

                                                                                                                    The single-employer Present Value of Future Benefits (PVFB) is the estimated liability
                                                                                                                    for future pension benefits that PBGC is or will be obligated to pay the participants of
                                                                                                                    trusteed plans and the net liabilty for plans pending termination and trusteeship.

                                                                                                                    Net claims for probable terminations represents PBGC's best estimate of the losses net
                                                                                                                    of plan assets, and the present calue of expected recoveries (from sponsors and
                                                                                                                    members of their controlled group) for plans that are likely to terminate in a future year.
                                                                                                                    These estimated losses are based on conditions that existed as of PBGC's fiscal year-
                                                                                                                    end.

2                  Provide the name, description, and the related amounts of the insurance or guarantee
                   programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   The values of the Present Value of Future Benefits (PVFB) are particularily senstive to
                   the significant                                                                                  changes in underlying estimates and assumptions.
                   accounting policies pertaining to this note.                                                     (1) Trusteed Plans represents the present value of future benefit payments less the
                                                                                                                    present value of expected recoveries.
                                                                                                                    (2) Pending termination and Trusteeship represents the present value of future benefit
                                                                                                                    payments less the plans' net assets.
                                                                                                                    (3) Settlements and Judgments represents estimated laibilities related to settled
                                                                                                                    litigation.
                                                                                                                    (4) Net Claims for Probable Terminations, in accordance with FASB Accounting
                                                                                                                    Standards Codification Section 450, PBGC recognizes net claims for probable
                                                                                                                    terminations with $50 million or more of underfunding.
                                                                                                                    (5) PBGC identifies certain plans as high risk if the plan sponsor is in Chapter 11, or the
                                                                                                                    sponsor's senior unsecured debt is rated CCC+/Caa1or lower by S&P or Moody's.
                                                                                                                    (6) In order for a plan sponsor to be classified as reasonably possible, it must first have
                                                                                                                    $5 million or more in underfunding, as well as meet additional criteria. Criteria include,
                                                                                                                    but not limited to, one or more of the following conditions: the plan sponsor is in Chapter
                                                                                                                    11; funding waiver pending or outstanding with the Internal Revenue Service; sponsor
                                                                                                                    missed minimum funding contribution; sponsor's rating is below-investment grade;
                                                                                                                    sponsor has no bond rating but unsecured debt is below investment grade; or sponsor
                                                                                                                    has no bond rating but the ratio of long-term debt plus unfunded benefit liabilty to


                                                                                                           - 45 -
                                                                                                                                                                                    11/15/2010 16:39:55

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

   Note: 14         Insurance and Guarantee Program Liabilities                                                                  Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:          A/R - MD&A and Note 2

 Status: Complete                     The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                      Answer
                                                                                                               market value shares is 1.5 or greater.




                                                                                                - 46 -
                                                                                                                                                                                              11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 15             Other Liabilities                                                                                                Fiscal Year: 2010                 Period: SEPTEMBER
   Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:        AR -Notes 3,4 & 7

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account     2010 - SEPTEMBER       2009 - SEPTEMBER
                                                                                       Type
Other Liabilities                                                               C        L                    12,361                    7,869
                                                                                    Variance:                      0                        0           Rounding Method: Millions         Decimal: Zero
Line Status Line Description                   2010 - SEPTEMBER           2009 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                  395                          386                           386                            0
 2               Accrued wages and                                   7                            6                             6                            0
                 benefits
 4               Other debt
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability
 11              Custodial liabilities
 12              Accrued annual leave                                 7                           7                             7                            0
 14              Advances and
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds
 17              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18
 19
 20
 21           Other Liabilities                                 11,952                       7,470                       8,632                       -1,162
              Total                                             12,361                       7,869                       9,031                        -1,162




                                                                                                           - 47 -
                                                                                                                                                                                         11/15/2010 16:39:55

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 15           Other Liabilities                                                                                         Fiscal Year: 2010                 Period: SEPTEMBER
  Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      AR -Notes 3,4 & 7

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                              Question                                                       Answer
Line Item Notes - Accrued wages and benefits (2010 -          Please provide explanations for any amounts that have          This change is due to an increase in accrued wages and benefits.
SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Other Liabilities (2010 - SEPTEMBER)        Please enter a description for any amounts over $50 million.   Of the total $4,482 million increase in Other Liabilities from FY 2009 to FY
                                                                                                                             2010, Payable upon return of securities loaned increased $3,284 million,
                                                                                                                             Due for purchases of securities increased $1,154 million, Present value of
                                                                                                                             nonrecoverable future financial assistance increased $734 million, partially
                                                                                                                             offset by a decrease of $643 million to Securities sold under repurchase
                                                                                                                             agreements.




                                                                                                        - 48 -
                                                                                                                                                                                                     11/15/2010 16:39:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 15           Other Liabilities                                                                                                 Fiscal Year: 2010                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:       AR -Notes 3,4 & 7

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1      Line 1, Deferred revenue is attributable to unearned revenue premium for both the
                   through 21 by including a description of the significant related amounts and providing the         single-employer and multiemployer programs - which can be located on the balance
                   page number of the agency's financial report where the amount is identified.                       sheet under Unearned premiums.

                                                                                                                      Line 21, Other liabilities consists of Present value of nonrecoverable future financial
                                                                                                                      assistance, Derivative contracts, Due for purchase of securities and Payable upon
                                                                                                                      return of securities loaned - which all can be located on the balance sheet.
2                  Provide a description and related amounts for balances that exceed $50 million on the line         Items that consists of $50 million or more reported in Other liabilities are: Securities sold
                   titled, "Other liabilities," and provide the page number of the agency's financial report where    upon return of securities loaned of $5,791million, Due for purchase of securities of
                   the amount is identified.                                                                          $3,076 million, Present value of nonrecoverable future financial assistance of $3,030
                                                                                                                      million and $55 million applicable to the Derivative contracts line item - which all are
                                                                                                                      located on the balance sheet.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly     Payable upon return of securities loaned represents the liability created under securities
                   the significant                                                                                    lending where PBGC maintains effective control over the securities and will remain as a
                   accounting policies pertaining to this note.                                                       liability until the transaction is completed and the securities are returned.

                                                                                                                      Due for purchases of securities represents the liability position for open trades (not
                                                                                                                      settled), and are presented at fair value in accordance with the general investment
                                                                                                                      policies.

                                                                                                                      Present value of nonrecoverable future financial assistance represents an estimated
                                                                                                                      laibility for nonrecoverable payments to be provided to multiemployer plans in the
                                                                                                                      future. The liability represents the present value of all future payments which can be
                                                                                                                      estimated and are probably nonrecoverable.

                                                                                                                      PBGCS' derivative financial instruments are recorded at fair value and are included on
                                                                                                                      the Statements of Financial Condition and related footonotes as investments and
                                                                                                                      derivative contracts. Derivative contracts include future contracts in a receivable
                                                                                                                      position, future contracts in a payable position, interest rate swaps, credit defualt
                                                                                                                      swaps, options purchased (long), options written (sold short), and foreign exchange
                                                                                                                      forward contracts.




                                                                                                             - 49 -
                                                                                                                                                                                11/15/2010 16:39:55

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Stmnts of Fncl Cndtn & Stmnts of Oprtns and Chngs

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 50 -
                                                                                                                                                                                11/15/2010 16:39:55

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Stmnts of Fncl Cndtn & Stmnts of Oprtns and Chngs

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors- Years Preceding      No Data Flag: YES      Line Attributes: Dollars
                                           2009                                                                        Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors - Years Preceding 2009    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 51 -
                                                                                                                                                                                11/15/2010 16:39:55

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Stmnts of Fncl Cndtn & Stmnts of Oprtns and Chngs

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 52 -
                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 17            Prior-Period Adjustments                                                                              Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    Stmnts of Fncl Cndtn & Stmnts of Oprtns and Chngs

  Status: Complete                          The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: G             Section Name: Closing Package Adjustments                                                    Line Attributes: Dollars
                                                                                                                         Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB                Amount C
 1              BS - Fixed maturity   N/A                          92
                securities
 2              BS - equity           N/A                          58
                securities
 3              BS - Other            N/A                       -146
 4              BS - Sale of          N/A                       1,634
                securities
 5              BS - Derivative       N/A                      -2,791
                contracts A/R
 6              BS - Derivaitve       N/A                      -2,903
                contracts A/P
 7              BS - Due for          N/A                       1,750
                purchases of
                securities
 8              IS - Investment       N/A                          64
                income - Fixed
 9              IS - Investment       N/A                         -36
                income - Equity
10              IS - Investment       N/A                         -28
                income - Other
11              Total                 N/A                       2,306




                                                                                                      - 53 -
                                                                                                                                                                                                  11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 17          Prior-Period Adjustments                                                                                         Fiscal Year: 2010                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       Stmnts of Fncl Cndtn & Stmnts of Oprtns and Chngs

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the restatements to the prior year that resulted from correcting errors that occurred
                   in the prior year (data reported in Sections A and B).
2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-
                   year beginning net position (data reported in Sections C and D).
3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected
                   against the current-year operations (data reported in Sections E and F).
4                  Describe any adjustments of the previous year (2009) reclassification in this year¿s (2010)      The answers below are in response to Question 4 of the Text Data tab explaining
                   Closing Package prior-year (2009) reporting (data reported in Section G), excluding              reclassifications to the Statements of Financial Condition from prior year 2009 to current
                   amounts reported as restatements in Section A and B.                                             year 2009.

                                                                                                                    Line 1 of Section G - Fixed maturity securities:$1,066 million from Derivative contracts
                                                                                                                    (receivable), $1,062 million credit from Derivative contracts (payable), $88 million from
                                                                                                                    Other, arriving at a net reclass of $92 million for Fixed maturity securities.
                                                                                                                    Line 2 of Section G - Equity securities: $58 million from Other.
                                                                                                                    Line 3 of Section G - Other: $88 million to Fixed maturity securities, $58 million to
                                                                                                                    Equity securities, arriving at a net reclass of $(146) million to Other.
                                                                                                                    Line 4 of Section G - Sale of securities: $1,634 million from Derivative contracts
                                                                                                                    (receivable).
                                                                                                                    Line 5 of Section G - Derivative contracts (receivable): $1,634 million to Sale of
                                                                                                                    securities, $1,066 million to Fixed maturity securities, $91 million credit from Derivative
                                                                                                                    contracts (payable), arriving at a net reclass of $(2,791) million to Derivative contracts
                                                                                                                    (receivable).
                                                                                                                    Line 6 of Section G - Derivative contracts (payable): $1,750 million to Due for
                                                                                                                    purchases of securities, $1,062 million to Fixed maturity securities, $91million to
                                                                                                                    Derivative contracts (receivable), arriving at a net reclass of $(2,903) for Derivative
                                                                                                                    contracts (payable).
                                                                                                                    Line 7 of Section G - Due for purchases of securities: $1,750 million from Derivative
                                                                                                                    contracts (payable).

                                                                                                                    The answers below are in repsonse to Question 4 of the Text Data tab explaining
                                                                                                                    reclassifications to the Statements of Operations and Changes in Net Position from
                                                                                                                    prior year 2009 to current year 2009.

                                                                                                                    Line 8 of Section G - Investment income - Fixed: $36 million from Investment income -
                                                                                                                    Equity, $28 million from Investment income - Fixed, arriving at $64 million reclass.
                                                                                                                    Line 9 of Section G - Investment income - Equity: $36 million to Investment income -
                                                                                                                    Fixed.
                                                                                                                    Line 10 of Section G - Investment income - Other: $28 million to Investment income -
                                                                                                                    Fixed.



5                  Describe the adjustments to the current-year or prior-year beginning net position that
                   resulted from changes in accounting principles as reported on the Reclassified Statement of



                                                                                                           - 54 -
                                                                                                                                                                                             11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 17          Prior-Period Adjustments                                                                                         Fiscal Year: 2010                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       Stmnts of Fncl Cndtn & Stmnts of Oprtns and Chngs

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
                   Changes in Net Position, line 2.1 and/or line 3.1.
6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   There is no other relevant information pertaining to this note.
                   the significant accounting policies pertaining to this note.




                                                                                                          - 55 -
                                                                                                                                                                                           11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18            Contingencies (SFFAS Nos. 5 and 12)                                                                           Fiscal Year: 2010                 Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - Notes 2, 9 &16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Insurance Contingencies (Reasonably Possible Only)                                     Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              PBGC Defined         Credit                     169,744                    167,864                    167,864                           0
                Pension Plan
                (Single-employer)
 2              PBGC Defined         Credit                      20,232                        326                         326                          0
                Pension Plan
                (Multi-employer)
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                 N/A                     -189,976                   -168,190                   -168,190                            0
       Section: B             Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES            Line Attributes: Dollars
                                            Dividends Paid)                                                                      Rounding Method: User-Defined                    Decimal: User-Defined
Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd       Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                 N/A




                                                                                                        - 56 -
                                                                                                                                                                                        11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:     AR - Notes 2, 9 &16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C              Section Name: Civil Litigation, Claims and Assessments                                             Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable           PYAccrued/Estimated PY Estimated Range(Low
                                                          amount                          end)                   (High end)      to determine loss)          amount rued/Estimated                 end)
                                                                                                                                                                         amount
 1              Probable             Credit
 2              Reasonably           Credit                                                     68                                                                                                      68
                Possible
Line Status Line Description           NB        PY Estimated Range        PY Claim amunt (unable
                                                         (High end)                to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: D              Section Name: Environmental Litigation, Claims, and Assessments        No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable         PY Accrued/Estimated     PY Estimated Range
                                                          amount                      (Low end)                  (High end)            to determine)                    amount                (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB        PY Estimated Range      PY Claim amount (unable
                                                      (High Range)                 to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: E              Section Name: Other Contingencies                                      No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




                                                                                                        - 57 -
                                                                                                                                                                             11/15/2010 16:39:55

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

     Note: 18        Contingencies (SFFAS Nos. 5 and 12)                                                                     Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    AR - Notes 2, 9 &16

  Status: Complete                      The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: F        Section Name: Other Contingencies                                      No Data Flag: YES         Line Attributes: Dollars
                                                                                                                        Rounding Method: User-Defined               Decimal: User-Defined
Line Status Line Description    NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 3        I                    Credit
 4        I                    Credit
 5        I                    Credit




                                                                                                  - 58 -
                                                                                                                                                                                                          11/15/2010 16:39:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                                Fiscal Year: 2010                      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:         AR - Notes 2, 9 &16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Describe the risk insurance programs that are in force.                                           Title IV of ERISA requires PBGC to provide mandatory insurance for defined benefit
                                                                                                                     pension plans. PBGC operates two programs one for the single-employer (SE) and the
                                                                                                                     other for multiemployer (ME) defined benefit pension plans. When an SE plan
                                                                                                                     terminates and does not have enough assets to pay Title IV benefits to the participants,
                                                                                                                     PBGC trustees the plan and pay benefits (up to the guaranteed limit) to the participants.
                                                                                                                     PBGC does not trustee ME plans but provides financial assistance to the plan when it
                                                                                                                     becomes insolvent (there are not enough assets to pay guaranteed level of benefits to
                                                                                                                     the participants). Insurance contingencies are the estimated aggregate underfunded
                                                                                                                     vested benefits exposure to PBGC whose SE plans are classified as reasonably
                                                                                                                     possible of termination. This amount as of September 30, 2010 was $169,744 million.

                                                                                                                     In addition, PBGC estimates that as of September 30, 2010, it is reasonably possible
                                                                                                                     that the multiemployer program may require future assistance in the amount of $20,232
                                                                                                                     million. As of September 30, 2009 and 2008, these exposures were estimated at $326
                                                                                                                     million and $30 million, respectively. The significant increase in FY 2010 from prior
                                                                                                                     years is due to the addition of two large plans to the reasonably possible inventory. The
                                                                                                                     sponsor of one plan, with the net liability of $15.0 billion, is in the "transportation, and
                                                                                                                     utilities" industry category; the other, with net liability of $4.8 billion, is in the "agriculture,
                                                                                                                     mining, and construction" industry category.
2                  Provide the nature of the isurance contingencies.
3                  Provide the nature of the litigation contingencies, including the range of loss for probable
                   liabilities.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably     A union representing particpants of a plan has filed in federal court against PBGC. They
                   possible contingencies.                                                                           are challenging a PBGC Appeals Board deciscion denying particpant shutdown
                                                                                                                     benefits. An estimate of potential loss is $68 million.

                                                                                                                     In addition, there are two reasonably possible civil litigation cases, whereas no estimate
                                                                                                                     of the amount or range of potential loss can be made with any degree of certainty.
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.
                   Also, provide a statement on whether this materiality affects the financial statements.
6                  Describe the other claims that may derive from treaties or international agreements.
7                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    In order for a single-employer plan sponsor to be specifically classified as reasonable
                   the significant accounting policies pertaining to this note.                                      possible, it must first have $5 million or more of underfunding, as well as meet addtional
                                                                                                                     crietria. Criteria used for classifying a sponsor as reasonably possible include, but not
                                                                                                                     limited to, one or more of the following conditions: the plan sponsor is in Chapter 11
                                                                                                                     reorganization; funding waiver pending or outstanding with the Internal Revenue
                                                                                                                     Service; sponsor missed minimum funding contribution; spnsor's bond rating is below-
                                                                                                                     investment-grade for Standard & Poor's (BB+) or Moody's (Ba1); sponsor has no bond
                                                                                                                     rating but the ratio of long-term debt plus unfunded benefit liability to market value of
                                                                                                                     shares is 1.5 or greater (See Note 9).

                                                                                                                     The Corporation calculated the future financial assistance liability for each
                                                                                                                     multiemployer plan identified as reasonably possible as the present value of guaranteed
                                                                                                                     future benefit and expense payments net of any future contributions or withdrawal


                                                                                                            - 59 -
                                                                                                                                                                                            11/15/2010 16:39:55

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                                GF006 - FR Notes Report

   Note: 18         Contingencies (SFFAS Nos. 5 and 12)                                                                          Fiscal Year: 2010                  Period: SEPTEMBER
  Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:       AR - Notes 2, 9 &16

 Status: Complete                    The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                     Answer
                                                                                                              liability payments as of later September 30, 2010, or the projected (or actual, if known)
                                                                                                              date of plan insolvency, discounted back to September 30, 2010. The Corporation's
                                                                                                              identification of plans that are likely to require such assistance and estimation of related
                                                                                                              amounts required consideration of many complex factors, such as estimate of future
                                                                                                              cash flows, future mortality rates, and age of particpants not in pay staus. These factors
                                                                                                              are affected by future events, including actions by plans and their sponsors, most of
                                                                                                              which are beyond the Corporation's control.




                                                                                               - 60 -
                                                                                                                                                                                                   11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2010                   Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:          AR Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit
 4              Software license       Debit
 5              Other                  Debit
 6              Accumulated            Credit
                depreciation/amorti
                zation
 7              Net assets under        N/A
                capital leases
       Section: B               Section Name: Capital leases - Liability                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A
                liability


       Section: C               Section Name: Commitments: Operating leases and undelivered                                          Line Attributes: Dollars
                                              orders                                                                               Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
 1              Operating leases       Credit                                                     154                                                     190
 2            Undelivered orders Credit                                 27                        133                         28                          116
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Operating leases (CY Non-Federal)               Please provide explanations for any amounts that have             The decrease in the operating lease from FY 2009 to FY 2010 is due to
                                                                    changed by 10% or more and or greater than $500,000               another year fullfilled on the lease obligation and a modification in estimate
                                                                    between the current fiscal year and prior fiscal year.            to projected lease obligations.
                                                                    (unaudited)



                                                                                                             - 61 -
                                                                                                                                                                                                         11/15/2010 16:39:55

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                          Fiscal Year: 2010                  Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                                 Agency Notes:       AR Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: C                Section Name: Commitments: Operating leases and undelivered                                                Line Attributes: Dollars
                                               orders                                                                                     Rounding Method: Millions                            Decimal: Zero
Threshold
 Line Description                                                    Question                                                                Answer
 Other Notes Info - Undelivered orders (CY Non-Federal)              Please provide explanations for any amounts that have                   PBGC has experienced an increase in contractual services from FY 2009 to
                                                                     changed by 10% or more and or greater than $500,000                     FY 2010.
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (unaudited)




       Section: D                Section Name: Other Commitments                                            No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                          Rounding Method: User-Defined                        Decimal: User-Defined
Line Status Line Description            NB                CY Federal                CY Non-Federal                       PY Federal           PY Non-Federal
10                                     Credit
11                                     Credit
12                                     Credit
13                                     Credit
14                                     Credit
15              Total                   N/A


Tab: Text Data
 Line                   Question                                                                                              Answer
 1                      Describe the lessee's leasing arrangements including the basis on which contingent rental             PBGC leases its office facility under a commitment that began on January 1, 2005, and
                        payments are determined, the existence and terms of renewal or purchase options,                      expires December 10, 2019. This lease provides for periodic rate increases based on
                        escalation clauses and restrictions imposed by lease agreement.                                       increases in operating costs and real estate taxes over a base amount. In addition,
                                                                                                                              PBGC is leasing space for field benefit administrators. These leases began in 1996 and
                                                                                                                              expire in 2014.
 2                      Provide any other relevant information pertaining to this note. At a minimum, describe briefly        Commitments represent an obligation to make future payments in exchange for the
                        the significant accounting policies pertaining to this note.                                          receipt of an asset or benefit. Operating leases haviing intial remaining non-cancellable
                                                                                                                               lease terms in excess of one year shall be disclosed in the financial statements or the
                                                                                                                              related footnotes (See Note 10).




                                                                                                               - 62 -
                                                                                                                                                                                       11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                              Fiscal Year: 2010            Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Other Notes Info.

      Section: A              Section Name: Assets - Current Year                                   No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description          NB           Cash and other             Fund balance with           Inv in U. S. Treas.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                monetary assets D                  Treasury D       Sec.(net of prem. & disc)                              earmarked funds) D        (with non-earmarked
                                                                                                                           D                                                                    funds) D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                       - 63 -
                                                                                                                                                                                        11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2010            Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: B              Section Name: Assets - Prior Year                                     No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description          NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                monetary assets D                  Treasury D       (net of prem. & disc.) D                                earmarked funds) D        (with non-earmarked
                                                                                                                                                                                                 funds) D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 64 -
                                                                                                                                                                                                11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2010             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: C              Section Name: Liabilities and Net Position - Current Year              No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and       Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C         (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                  C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                         - 65 -
                                                                                                                                                                                                 11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                 Fiscal Year: 2010             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


      Section: D              Section Name: Liabilities and Net Position - Prior Year                 No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                   C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                          - 66 -
                                                                                                                                                                                    11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2010             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: E              Section Name: Revenue, Financing, Expenses, and Other - Current       No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                             Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue C   Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C                             and payroll tax withhold               taxes C                           C
                                                                                                                                                  C
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A

Line Status Line Description          NB      Miscellaneous earned            Intragovernmental Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                        revenue C               transfers, net C                        D     Intragovernmental D                          D                   period
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A




                                                                                                      - 67 -
                                                                                                                                                                                      11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                             Fiscal Year: 2010             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: F              Section Name: Revenue, Financing, Expenses, and Other - Current       No Data Flag: YES            Line Attributes: Dollars
                                            Year                                                                               Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from    Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C    and payroll tax withhold               taxes C                           C
                                                                                                                                                    C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D     Intragovernmental D                          D                   period
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 68 -
                                                                                                                                                                                      11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                             Fiscal Year: 2010             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: G              Section Name: Revenue, Financing, Expenses, and Other - Prior         No Data Flag: YES            Line Attributes: Dollars
                                            Year                                                                               Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from    Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C    and payroll tax withhold               taxes C                           C
                                                                                                                                                    C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D     Intragovernmental D                          D                   period
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 69 -
                                                                                                                                                                                    11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                           Fiscal Year: 2010             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: H              Section Name: Revenue, Financing, Expenses, and Other - Prior         No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                             Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue C   Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C                             and payroll tax withhold               taxes C                           C
                                                                                                                                                  C
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A

Line Status Line Description          NB      Miscellaneous earned            Intragovernmental Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                        revenue C               transfers, net C                        D     Intragovernmental D                          D                   period
21      I                             N/A
22      I                             N/A
23      I                             N/A
24      I                             N/A
25      I                             N/A
26      I       All other earmarked   N/A
                funds
27      I       Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28      I       Total                 N/A




                                                                                                      - 70 -
                                                                                                                                                                                 11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: I             Section Name: Number of Agency Earmarked Funds                               No Data Flag: YES          Line Attributes: Units


Line Status Line Description          NB       2010 - SEPTEMBER                2009 - SEPTEMBER                    Previously Rptd    Line Item Changes
 1              Total number of       N/A
                earmarked funds




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a general description of the individual earmarked funds reported in the Other Notes
                     Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the
                     fund (SFFAS No. 27, par. 23.1).
 2                   State the legal authority for the administrative entity of each fund to use the revenues and
                     other financing sources based on SFFAS No. 27, par. 23.1
 3                   Explain any change in legislation during or subsequent to the reporting period and before the
                     issuance of the financial statements that significantly change the purpose of the fund or that
                     redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
 4                   Provide the sources of revenue and other financing for amounts reported in columns 3
                     through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
 5                   Provide any other relevant information pertaining to this note, including explanation for prior-
                     period adjustments, if any. At a minimum, describe briefly the significant accounting policies
                     pertaining to this note.




                                                                                                              - 71 -
                                                                                                                                                                                 11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                         Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:     N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-              No Data Flag: YES          Line Attributes: Units
                                            Unaudited
Line Status Line Description         NB      CY Beginning Balance                 CY Acquired                  CY Withdrawn   CY Ending Balance         PY Beginning Balance         PY Acquired

 1              Public Land         N/A
 2              National Forest     N/A
                System
 3              National Wildlife   N/A
                Refuge System
 4              National Park       N/A
                System
 5              Withdrawn Public    N/A
                Land
 6        I     Mission Land        N/A
 7              Water, Power, and   N/A
                Recreation
 8              Geographic          N/A
                Management Areas
 9              National Fish       N/A
                Hatcheries
10              Conservation        N/A
                Areas
11              National Marine     N/A
                Monuments
12              All other           N/A




                                                                                                      - 72 -
                                                                                                                                                                           11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 25          Stewardship Land                                                                                            Fiscal Year: 2010       Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:     N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: A            Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-                  No Data Flag: YES        Line Attributes: Units
                                           Unaudited
Line Status Line Description        NB             PY Withdrawn              PY Ending Balance
 1          Public Land             N/A
 2          National Forest         N/A
            System
 3          National Wildlife       N/A
            Refuge System
 4          National Park           N/A
            System
 5          Withdrawn Public        N/A
            Land
 6     I    Mission Land            N/A
 7          Water, Power, and       N/A
            Recreation
 8          Geographic              N/A
            Management Areas
 9          National Fish           N/A
            Hatcheries
10          Conservation            N/A
            Areas
11          National Marine         N/A
            Monuments
12          All other               N/A
Tab: Text Data                        No Data Flag: YES
 Line               Question                                                                                           Answer
 1                  Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                  Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                  Provide a brief statement explainng how the stewardship land relates to the mission of the
                    agency (SFFAS No. 29, par. 40a).
 4                  Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                    No. 29, par. 40b).
 5                  Provide any other information relevant information pertaining to this note. At a minimum,
                    describe briefly the significant accounting policies pertaining to this note.




                                                                                                          - 73 -
                                                                                                                                                                              11/15/2010 16:39:55

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                  GF006 - FR Notes Report

     Note: 26        Heritage Assets                                                                                        Fiscal Year: 2010             Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:     N/A

  Status: Complete                     The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: A        Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.     No Data Flag: YES         Line Attributes: Units
                                       25d) - Unaudited
Line Status Line Description     NB     CY Physical units as of    CY Physical units added           CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                          the beginning of the                                           withdrawn        ending balance            beginning balance
                                                        year
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A

Line Status Line Description     NB          PY Physical units    PY Physical units-ending
                                                 withdrawn                       balance
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A
       Section: B        Section Name: Non-Collection Type Heritage Assets (SFFAS No.          No Data Flag: YES         Line Attributes: Units
                                       29, par. 25d) - Unaudited
Line Status Line Description     NB         CY Physical units      CY Physical units added           CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                          beginning balance                                              withdrawn        ending balance            beginning balance
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A

Line Status Line Description     NB          PY Physical units    PY Physical units-ending
                                                 withdrawn                       balance
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A




                                                                                                 - 74 -
                                                                                                                                                                       11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 26          Heritage Assets                                                                                           Fiscal Year: 2010      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                         Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency
                   (SFFAS No. 29, par. 25a).
2                  Provide a brief description of the agency's stewardship policies for each major category of
                   the heritage assets (SFFAS No. 29, par. 25b).
3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS
                   29, par. 26).
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.




                                                                                                           - 75 -
                                                                                                                                                                                            11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
       Section: B         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A



                                                                                                       - 76 -
                                                                                                                                                                                            11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: C         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
       Section: D         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds - Prior Year                                                                        Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A




                                                                                                       - 77 -
                                                                                                                                                                                11/15/2010 16:39:55

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 27          Fiduciary Activities                                                                                            Fiscal Year: 2010       Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:     N/A

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: E            Section Name: Number of Agency Fiduciary Activities                            No Data Flag: YES        Line Attributes: Units


Line Status Line Description          NB           CY Total number of             PY Total number of
                                                   fiduciary funds- all    fiduciary funds- all funds
                                                               funds
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A



Tab: Text Data                          No Data Flag: YES
 Line               Question                                                                                                Answer
 1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives
                    of the fiduciary activity, and a general description of the beneficial owners or class of owners
                    of each fiduciary fund (SFFAS No. 31, par. 18(a)).
 2                  Provide information on any significant changes in fiduciary net assets from the prior period
                    (SFFAS No. 31, par. 18(c)).
 3                  Provide the TAS for all funds with fiduciary activities.
 4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is
                    represented by balances on deposit with either the U.S. Treasury or with a commercial
                    banking institution (SSFAS No. 31, par. 12).
 5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net
                    Assets.
 6                  If separate audited financial statements are issued for an individual fiduciary activity with a
                    fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS
                    No. 31, par. 18(e)).
 7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose
                    the basis of accounting used and the auditor's opinion on the current or most recent financial
                    statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                    auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                    22(a)).
 8                  If separate audited financial statements are issued for an individual fiduciary activity, provide
                    information on how the reader can obtain a copy of the financial statements and the audit
                    opinion thereon (SFFAS No. 31, par. 22(b)).
 9                  If more than one agency is responsible for administering a fiduciary activity, and the separate
                    portions of the activity can be clearly identified with another responsible agency, identify the
                    other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
 10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                               - 78 -
                                                                                                                                                                                                      11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                     Fiscal Year: 2010                  Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                  Agency Notes:        N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                       I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account      2010 - SEPTEMBER            2009 - SEPTEMBER
                                                                                   Type
Investment in Government sponsored enterprises (GSEs)                      D         A                               0                       0
                                                                                Variance:                            0                       0          Rounding Method: Millions                Decimal: Zero
Line Status Line Description         CY liquidation pref. val. at   CY increase in liquidation       CY net incr. liq. pref. val.   CY valuation (gain/loss)       CY fair val. at reporting   PY liquidation pref. val. at
                                              beg. of year               pref. val. for CY                                                                                         date                 beg. of year
 1          Fannie Mae senior
            preferred stock
 2          Freddie Mac senior
            preferred stock
 3          Fannie Mae warrants
            common stock
 4          Freddie Mac warrants
            common stock
 5
 6
 7
 8          All other stock
            Total

Line Status Line Description           PY increase in liquidation     PY net incr. liq. pref. val.      PY valuation (gain/loss)      PY fair val. at reporting
 1          Fannie Mae senior
            preferred stock
 2          Freddie Mac senior
            preferred stock
 3          Fannie Mae warrants
            common stock
 4          Freddie Mac warrants
            common stock
 5
 6
 7
 8          All other stock
            Total




                                                                                                            - 79 -
                                                                                                                                                                            11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)           Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions             Decimal: Zero
Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Revenue               Credit
               recognized from
               acquisition of
               preferred stocks
               and warrants
 2             Revenue               Credit
               recognized from
               dividends and
               periodic
               commitment fees
 3             The dollar amount     Debit
               of liquidation
               preference value
               per share of senior
               preferred stock
       Section: B             Section Name: Other Related Information (in Percentages)                No Data Flag: YES         Line Attributes: Percent


Line Status Line Description          NB        2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Nominal cost           N/A
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends      N/A




                                                                                                        - 80 -
                                                                                                                                                                               11/15/2010 16:39:55

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)              Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C             Section Name: Other Related Information in Shares                           No Data Flag: YES         Line Attributes: Units


Line Status Line Description          NB      2010 - SEPTEMBER                 2009 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Number of non-         N/A
               voting senior
               preferred stock -
               shares




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                             - 81 -
                                                                                                                                                                                       11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)            Fiscal Year: 2010               Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                            0                  0
                                                                                 Variance:                         0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description            2010 - SEPTEMBER              2009 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1           GSE accrued liability
 2           GSE contingent
             liability
 3      I    Keepwell Payable -
             Fannie Mae
 4      I    Keepwell Payable -
             Freddie Mac
 5           Private entities entered
             liability
 6
 7
 8           All other liabilities
             Total




                                                                                                          - 82 -
                                                                                                                                                                                 11/15/2010 16:39:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)                Fiscal Year: 2010      Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB       2010 - SEPTEMBER                2009 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Actual payment       Debit
               made to the GSE




Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 83 -
                                                                                                                                                                                            11/15/2010 16:39:55

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 29A          Derivative Assets                                                                                            Fiscal Year: 2010                Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:       Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2010 - SEPTEMBER         2009 - SEPTEMBER
                                                                                  Type
Derivative Assets                                                          D        A                          -23                -26
                                                                               Variance:                         0                   0           Rounding Method: Millions             Decimal: Zero
Line Status Line Description           2010 - SEPTEMBER              2009 - SEPTEMBER               Previously Rptd          Line Item Changes
 1           Interest rate contracts                           -7                          -12                                                    -12
 2           Foreign exchange                                 -32                            4                                                      4
             contracts
 3           Equity contracts
 4           Commodity contracts
 5           Credit contracts                                   10                         -18                                                    -18
 6           All other contracts                                 6                            0                                                      0
             Total                                             -23                          -26                                                    -26
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Credit contracts (2010 - SEPTEMBER)          Please provide explanations for any amounts that have             This change is attirbutable to PBGC's investment activity and market
                                                                changed by 10% or more and or greater than 500,000 between        fluctuations.
                                                                the current fiscal yearand prior fiscal year (Unaudited)

 Line Item Notes - All other contracts (2010 - SEPTEMBER)       Please provide explanations for any amounts that have             This change is attributable to PBGC's investment activity and market
                                                                changed by 10% or more and or greater than 500,000 between        fluctuations.
                                                                the current fiscal yearand prior fiscal year (Unaudited)




                                                                                                      - 84 -
                                                                                                                                                                                             11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                            Fiscal Year: 2010                Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Assets                                   No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis D        PY Fair Value Adjustment       PY Fair Market Value
                                                                                               D                                                                                 D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative contracts
       Section: B             Section Name: Non-Hedge Derivative Assets                                                           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis D        PY Fair Value Adjustment       PY Fair Market Value
                                                                                               D                                                                                 D
 1             Interest rate          N/A                            0                          -7                         -7                          0                        -12                         -12
               contracts
 2             Foreign exchange       N/A                            0                         -32                        -32                          0                           4                             4
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A                            0                          10                         10                          0                        -18                         -18
 6             All other contracts    N/A                            0                           6                          6                          0                           0                             0
 7             Total non-hedge        N/A                            0                         -23                        -23                          0                        -26                         -26
               derivative contracts
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - Credit contracts (CY Fair Value              Please provide explanations for any amounts that have             This change is attributable to PBGC's investment activity and market
 Adjustment)                                                     changed by 10% or more and or greater than 500,000                fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)




                                                                                                         - 85 -
                                                                                                                                                                                             11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                            Fiscal Year: 2010                Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:          Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B             Section Name: Non-Hedge Derivative Assets                                                           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Threshold
 Line Description                                                 Question                                                         Answer
 Other Notes Info - All other contracts (CY Fair Value            Please provide explanations for any amounts that have            This change is attributable to PBGC's investment activity and market
 Adjustment)                                                      changed by 10% or more and or greater than 500,000               fluctuations.
                                                                  between the current fiscal yearand prior fiscal year
                                                                  (Unaudited)




       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as               No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Interest rate          Debit
               contracts
 2             Foreign exchange       Debit
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit
 6             All other contracts    Debit
 7             Total reclassified     N/A
               derivative gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Assets Not Designated as                                      Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB       2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Interest rate          Debit                         -58                       -486                                                -486
               contracts
 2             Foreign exchange       Debit                          23                         -61                                                    -61
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit                         -19                          72                                                     72
 6             All other contracts    Debit                         -90                         533                                                    533



                                                                                                          - 86 -
                                                                                                                                                                                   11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                         Fiscal Year: 2010              Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:         Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D             Section Name: Gain/Loss on Derivative Assets Not Designated as                                   Line Attributes: Dollars
                                            Hedging Instruments                                                              Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB       2010 - SEPTEMBER             2009 - SEPTEMBER               Previously Rptd    Line Item Changes
 7             Total recognized       N/A                        -144                          58                                                   58
               derivative gain/loss




                                                                                                       - 87 -
                                                                                                                                                                                                     11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29A         Derivative Assets                                                                                                  Fiscal Year: 2010                   Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:        Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed      1)The use of derivatives by PBGC investment managers is restricted in so far as
                   to                                                                                                 portfolios cannot utilize derivatives to create leverage in the portfolios for which they are
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC        responsible. That is, the portfolio shall not utilize derivatives to leverage the portfolio
                   815-                                                                                               beyond maximum risk level associated with a fully invested portfolio of physical
                   10-50-1A).                                                                                         securities. Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or
                                                                                                                      currency exposures), (2) to enhance investment returns, and /or (3) as liquid and cost-
                                                                                                                      effeicient substitutes for positions in physical securities.
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).                 2) Notional amounts for Derivative Assets are as the following: Futures $2,211 million,
                                                                                                                      Interest Rate Swaps $1,086 million, Credit default swaps $2,023 million, Option
                                                                                                                      contracts $38 million, and Fowards - foreign exchange $3,530 million (See Note 3).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both            3) Futures in a Derivative Asset position is disclosed in Derivative contracts (receivable)
                   assets and                                                                                         on PBGC's Balance Sheet. Both futures and option contracts in a Derivative Liablity
                   liabilities, respectively) on the Balance Sheet (FASB ASC 815-10-50-4A).                           position are disclosed in Derivative contracts (payable) on PBGC's Balance Sheet.
                                                                                                                      Interest rate swaps, credit default swaps, option contracts, and forwards - foreign
                                                                                                                      exchange are disclosed on PBGC's Income Statement under Investments - Fixed.
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC          4) The gains and losses for Futures, Interest rate swaps, credit default swaps, Options
                   815-                                                                                               purchased (long), Options written (short), and Fowards - foreign exchange all are
                   10-50-4A)                                                                                          reported in Investment income - Fixed.
5                  Provide a description of the transactions of derivative instruments classified as cashflow         5) PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   hedges                                                                                             are "non-designated"), so we have no hedge accounting requirements and would
                   that will result in them being reclassified into earnings during the current period (FASB ASC      recognize gain or loss in earnings in the period of change.
                   815-
                   10-50-4C).
6                  Provide a description of the nature of trading activities for non-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks (FASB ASC
                   815-10-
                   50-4F).
7                  Provide a description on the existence and nature of credit-risk related contingent features       7) PBGC does not have any credit-risk related contingent features.
                   and the
                   circumstances in which the features could be triggered in derivative instruments that are in a
                   net
                   liability position at the end of the reporting period (FASB ASC 815-10-50-4H)
8                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly     8) PBGC's derivative financial instruments are recorded at fair value and are included
                   the                                                                                                on the Statements of Financial Condition and related footnotes as investments and
                   significant accounting policies pertaining to this note.                                           derivative contracts. Derivative contracts include future contracts in a receivable
                                                                                                                      position, future contracts in a payable position, interest rate swaps, credit default
                                                                                                                      swaps, option purchased (long), options written (sold short), and foreign exchange
                                                                                                                      forward contracts.




                                                                                                             - 88 -
                                                                                                                                                                                             11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29B           Derivative Liablities                                                                                        Fiscal Year: 2010                Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2010 - SEPTEMBER        2009 - SEPTEMBER
                                                                                   Type
Derivative Liabilities                                                      C        L                          12                   9
                                                                                Variance:                        0                   0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description              2010 - SEPTEMBER           2009 - SEPTEMBER                Previously Rptd          Line Item Changes
 1            Interest rate contracts
 2            Foreign exchange
              contracts
 3            Equity contracts
 4            Commodity contracts
 5            Credit contracts
 6            All other contracts                               12                           9                                                         9
              Total                                             12                           9                                                         9
Threshold

 Line Description                                                Question                                                           Answer
 Line Item Notes - All other contracts (2010 - SEPTEMBER)        Please provide explanations for any amounts that have             This change is attributable to PBGC's investment activity and market
                                                                 changed by 10% or more and or greater than 500,000 between        fluctuations.
                                                                 the current fiscal yearand prior fiscal year (Unaudited)




                                                                                                       - 89 -
                                                                                                                                                                                        11/15/2010 16:39:55

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29B           Derivative Liablities                                                                                       Fiscal Year: 2010               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:        Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Liabilities                             No Data Flag: YES           Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB          CY Cost Basis C       CY Fair Value Adjustment     CY Fair Market Value         PY Cost Basis C        PY Fair Value Adjustment          PY Fair Value
                                                                                               C                                                                                C
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative amounts
       Section: B             Section Name: Non-Hedge Derivative Liabilities                                                     Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB          CY Cost Basis C       CY Fair Value Adjustment     CY Fair Market Value         PY Cost Basis C        PY Fair Value Adjustment   PY Fair Market Value
                                                                                               C                                                                                C
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A                            0                        -12                         12                          0                        -9                           9
 7             Total non-hedge        N/A                            0                         12                         12                          0                         9                           9
               derivative amounts




                                                                                                       - 90 -
                                                                                                                                                                                              11/15/2010 16:39:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29B           Derivative Liablities                                                                                         Fiscal Year: 2010                Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:          Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Liabilities Designated as           No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                  Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All Other contracts    Credit
 7             Total reclassified      N/A
               derivativ gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Liabilities Not Designated as                                  Line Attributes: Dollars
                                            Hedging Instruments                                                                  Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB        2010 - SEPTEMBER             2009 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All other contracts    Credit                          21                         294                                                    294
 7             Total recognized        N/A                           -21                       -294                                                -294
               derivative gain/loss
Threshold
 Line Description                                                  Question                                                         Answer
 Other Notes Info - All other contracts (2010 - SEPTEMBER)         Please provide explanations for any amounts that have            This change is attributable to PBGC's investment activity and market
                                                                   changed by 10% or more and or greater than 500,000               fluctuations.
                                                                   between the current fiscal yearand prior fiscal year
                                                                   (Unaudited)




                                                                                                           - 91 -
                                                                                                                                                                                                     11/15/2010 16:39:55

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29B         Derivative Liablities                                                                                              Fiscal Year: 2010                   Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed      1) The use of derivatives by PBGC investment managers is restricted in so far as
                   to                                                                                                 portfolios cannot utilize derivatives to create leverage in the portfolios for which they are
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC        responsible. That is, the portfolio shall not utilize derivatives to leverage the portfolio
                   815-                                                                                               beyond maximum risk level associated with a fully invested portfolio of physical
                   10-50-1A).                                                                                         securities. Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or
                                                                                                                      currency exposures), (2) to enhance investment returns, and/or (3) as liquid and cost-
                                                                                                                      effeicient substitutes for positions in physical securities.
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).                 2) Notional amounts for Derivative Liabilities are as the following: Futures $1,024 million
                                                                                                                      and Option contracts $2,591 million (See Note 3).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both            3) Futures in a Derivative Asset position is disclosed in Derivative contracts (receivable)
                   assets and                                                                                         on PBGC's Balance Sheet. Both futures and option contracts in a Derivative Liability
                   liabilities, respectively) on the Balance Sheet (FASB ASC Topic 815-10-50-4A).                     position are disclosed in Derivative contracts (payable) on PBGC's Balance Sheet.
                                                                                                                      Interest rate swaps, credit default swaps, option contracts, and forwards - foreign
                                                                                                                      exchange are disclosed on PBGC's Income Statement under Investments- Fixed.

4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC          4) The gains and losses for futures, interest rate swaps, credit default swaps, options
                   Topic                                                                                              purchased (long), options written (short), and forwards - foreign exchange are all
                   815-10-50-4A).                                                                                     reported in Investment income - Fixed.
5                  Provide a description of the transactions of derivative instruments classified as cashflow         5) PBGC does not currently choose to adopt hedge fund accounting (i.e., PBGC
                   hedges                                                                                             derivatives are "non-designated"), so we have no hedging requirements and would
                   that will result in them being reclassified into earnings during the current period (FASB ASC      recognize gain or loss in earnings in the period of change.
                   Topic 815-10-50-4C).
6                  Provide a description of the nature of trading activities for non-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks (FASB ASC
                   815-10-
                   50-4F).
7                  Provide a description on the existence and nature of credit-risk related contingent features       7) PBGC does not have any credit-risk related contingent features.
                   and the
                   circumstances in which the features could be triggered in derivative instruments that are in a
                   net
                   liability position at the end of the reporting period (FASB ASC 815-10-50-4H).
8                  Provide any other revlevant information pertaining to this note. At a minimum, describe            8) PBGC's derivative financial instruments are recorded at fair value and are included
                   briefly the significant accounting policies pertaining to this note.                               on the Statements of Financial Condition and related footnotes as investments and
                                                                                                                      derivative contracts. Derivative contracts include future contracts in a receivable
                                                                                                                      position, future contracts in a payable position, interst rate swaps, credit default swaps,
                                                                                                                      options purchased (long), options written (short), and foreign exchange forward
                                                                                                                      contracts.




                                                                                                             - 92 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




             Section IX

 GF006F – Notes Status Report
                                    U.S. Department of the Treasury/FMS                     11-15-2010 17:11:30
                                  Governmentwide Financial Report System

                                             Notes Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                      Year:       2010            SEPTEMBER

Number    Note Title                                                                        Status

01        Federal Reserve Earnings, Subsequent Events, and Other Pertinent                  SUBMITTED
          Information
02        Cash and Other Monetary Assets                                                    SUBMITTED
03        Accounts and Taxes Receivable                                                     SUBMITTED
04A       Direct Loans Receivable and Mortgage Backed Securities                            SUBMITTED
04B       Loan Guarantees                                                                   SUBMITTED
05        Inventories and Related Property                                                  SUBMITTED
06        Property, Plant, and Equipment                                                    SUBMITTED
07        Debt and Equity Securities                                                        SUBMITTED
08        Other Assets                                                                      SUBMITTED
09        Accounts Payable                                                                  SUBMITTED
10B       Treasury securities held by the Government trust, revolving, and special          SUBMITTED
          funds
11        Federal Employee and Veteran Benefits Payable                                     SUBMITTED
12        Environmental and Disposal Liabilities                                            SUBMITTED
13        Benefits Due and Payable                                                          SUBMITTED
14        Insurance and Guarantee Program Liabilities                                       SUBMITTED
15        Other Liabilities                                                                 SUBMITTED
17        Prior-Period Adjustments                                                          SUBMITTED
18        Contingencies (SFFAS Nos. 5 and 12)                                               SUBMITTED
19        Commitments                                                                       SUBMITTED
22        Earmarked Funds                                                                   SUBMITTED
25        Stewardship Land                                                                  SUBMITTED
26        Heritage Assets                                                                   SUBMITTED
27        Fiduciary Activities                                                              SUBMITTED
28A       Financial and Housing Market Stabilization - Investment in Government             SUBMITTED
          Sponsored Enterprises (GSE)
28B       Financial and housing Market Stabilization - Liabilities to Government            SUBMITTED
          Sponsored Enterprises (GSE)
29A       Derivative Assets                                                                 SUBMITTED
29B       Derivative Liablities                                                             SUBMITTED




                                                    - 1 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




             Section X

 GF007 – Other Financial Report
    (FR) Data Status Report
                                   U.S. Department of the Treasury/FMS          11-15-2010 17:13:14
                                 Governmentwide Financial Report System

                                       Other FR Data Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                  Year:   2010            SEPTEMBER

Number    Note Title                                                                Status

01        Statement of Operations and Changes in Net Position                       SUBMITTED
02        Taxes                                                                     SUBMITTED
09        Stewardship Investments                                                   SUBMITTED
10        Deferred Maintenance                                                      SUBMITTED
15        Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No.           SUBMITTED
          5, par. 105, 106,and 114)
16        Analysis of FR Operating Revenue to Budget Receipts                       SUBMITTED




                                                  - 1 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2010 and 2009
 Special-Purpose Financial Statements


Audit Report AUD-2011-5 / FA-10-69-4




             Section XI

  GF007G – Other Data Report
                                                                                                                                                                                 11/15/2010 17:15:55

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 01                Statement of Operations and Changes in Net Position                                                     Fiscal Year: 2010             Period: SEPTEMBER
        Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A
        Status: Complete                                                                               I = Inactive Line


  Tab: Other Data Info.
      Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not              No Data: YES          Line Attributes: Dollars
                                               made as a result of using the modified cash basis of                                  Rounding Method: User-Defined         Decimal: User-Defined
                                               accounting.


Line Status     Line Description         NB            CY - Low Range               CY - High Range                 PY - Low Range        PY - High Range
 1                                      Debit
 2                                      Debit
 3                                      Debit
 4                                      Debit
 5                                      Debit



     Tab: Other Text Data

        Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not             No Data: YES
                                                 made as a result of using the modified cash basis of
                                                 accounting.

 Line         Question                                                                                                      Answer
 1            Provide the practical and inherent limitations affecting the accrual of taxes and duties. (SFFAS
              No. 7, par.64)




                                                                                                            - 1 -
                                                                                                                                                                  11/15/2010 17:15:55

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 02             Taxes                                                                                        Fiscal Year: 2010            Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                             Agency Notes:      N/A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                      No Data: YES             Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions            Decimal: Zero
Line Status   Line Description        NB      2010 - SEPTEMBER         2009 - SEPTEMBER              Previously Rptd      Line Item Changes
 1            Estimated realized      Debit
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 2 -
                                                                                                                                                                                     11/15/2010 17:15:55

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                             GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                       Fiscal Year: 2010             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A
        Status: Complete                                                                                   I = Inactive Line


     Tab: Other Data Info.
      Section: B                  Section Name: Provide the following amount if a range is estimable              No Data: YES             Line Attributes: Dollars
                                                and not included in Sec. A (SFFAS No. 7 par 67)                                          Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                       CY Low                        CY High                        PY Low               PY High
 1               Realizable value of     Debit
                 pre-assessment
                 work-in-progress
 2               Changes in line 1     Debit
                 above
 3               Management's best     Debit
                 estimate of
                 unasserted claims for
                 refunds
 4               Changes in line 3     Debit
                 above

     Tab: Other Text Data

        Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)                                       No Data: YES

 Line          Question                                                                                                         Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.
 2            Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax
              gap.
 3            Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers
              and importers.
 4            Provide the estimates of the annual tax gap (amounts should specifically define whether it
              includes or excludes estimates of tax due on illegally earned revenue).
 5            Disclose the amounts by which trust funds may be over- or under-funded in comparison with the
              requirements of law, if reasonable estimable.




                                                                                                                 - 3 -
                                                                                                                                                                       11/15/2010 17:15:55

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2010                   FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2010                   FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 4 -
                                                                                                                                                                       11/15/2010 17:15:55

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2010                    FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2010                    FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 5 -
                                                                                                                                                                                11/15/2010 17:15:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 09               Stewardship Investments                                                                                 Fiscal Year: 2010             Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A
        Status: Complete                                                                              I = Inactive Line


     Tab: Other Data Info.
      Section: E                Section Name: Research and Development: Investment in Applied               No Data: YES              Line Attributes: Dollars
                                              Research (SFFAS No. 8, par 100)                                                       Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                   FY 2010                      FY 2009                       FY 2008                FY 2007                 FY 2006
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS          No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                    Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal property.
              (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                     No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line          Question                                                                                                   Answer
 1            Provide a description of the major programs of Federal investments in development. (SFFAS No.
              8, par. 100)
 2            Provide a description of the progress of major development projects including the results with
              respect to projects completed or otherwise terminated during the year and the status of projects
              that will continue (SFFAS No. 8, par. 99)
     Tab: Other Text Data

        Section: C                  Section Name: Investment in Human Capital (SFFAS No. 8, par 100)          No Data: YES

 Line          Question                                                                                                   Answer
 1            Provide a description of the major education and training programs considered Federal
              investments in human capital. (SFFAS No.8, par. 94)


                                                                                                            - 6 -
                                                                                                                                                                    11/15/2010 17:15:55

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                            Fiscal Year: 2010         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
       Status: Complete                                                                          I = Inactive Line



    Tab: Other Text Data

       Section: D              Section Name: Research and Development: Investment in Basic                   No Data: YES
                                             Research (SFFAS No. 8, par.99 & 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in basic research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E              Section Name: Research and Development: Investment in Applied                 No Data: YES
                                             Research (SFFAS No. 8, par 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in applied research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                       - 7 -
                                                                                                                                                               11/15/2010 17:15:55

                                                                       U.S. Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System
                                                                          GF007 - Other Data Report

 Other Data: 10             Deferred Maintenance                                                                   Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                       Agency Notes:       N/A
      Status: Complete                                                            I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                            No Data: YES               Line Attributes: Dollars
                                                                                                                 Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB            CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                             D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                       - 8 -
                                                                                                                                                                                               11/15/2010 17:15:55

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                   Fiscal Year: 2010                   Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:          AR - MD&A Section VIII, Notes 2 & 9
        Status: Complete                                                                             I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                                               Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status      Line Description        NB       2010 - SEPTEMBER              2009 - SEPTEMBER                Previously Rptd            Line Item Changes
 1               Present value of       Debit                     189,976                      168,190                     168,190                               0
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit                      21,786                      121,428                     121,428                               0




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed

 Line         Question                                                                                                    Answer
 1            Provide the indicators of the range of uncertainty around insurance related estimates and                  Single-employer program exposure is $169,744 million and the multiemployer program
              sensitivity of the estimates to changes in major assumptions (SFFAS No.5, par.114)                         exposure is $20,232 million.
                                                                                                                         The significant volatility in plan underfunding and sponsor credit quality over time makes its
                                                                                                                         long-term estimates of PBGC's expected claims difficult. This volatility, and the
                                                                                                                         concentration of claims in a relatively small number of terminated plans, have characterized
                                                                                                                         PBGC's experience to date and will likely continue. Factors such as economic conditions
                                                                                                                         affecting interest rates, financial markets, and the rate of business failures will also influence
                                                                                                                         PBGC's claims going forward.

                                                                                                                         In accordance with Section 450, PBGC's exposure to losses from single-employer plans of
                                                                                                                         companies that are classified as reasonably possible is disclosed in the footnotes. In order
                                                                                                                         for a plan sponsor to be specfically classified as reasonably possible, it must first have $5
                                                                                                                         million or more of underfunding, as well as meet additonal criteria. Criteria used for
                                                                                                                         classifying a company as reasonably possible include, but are not limited to, one or more of
                                                                                                                         the following conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver
                                                                                                                         pending or outstanding with the Internal Revenue Service; sponsor missed minimum funding
                                                                                                                         contributions; sponsor's bond rating is below-investment-grade for Standard & Poor's
                                                                                                                         (BB+) or Moody's (Ba1); sponsor has no bond rating but unsecured debt is below investment
                                                                                                                         grade; or sponsor has no bond rating but the ratio of long-term debt plus unfunded benefit
                                                                                                                         liability to market value of shares is 1.5 or greater (See Note 9).
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected            The estimate of unfunded vested benefits exposure to loss is not based on PBGC-
              losses (SFFAS No. 5. par. 114)                                                                             guaranteed benefit levels, since data is not available to determine an estimate at this level of
                                                                                                                         precision. PBGC calculated this estimate, as in previous years, by using the most recent data
                                                                                                                         available from filings and submissions to the Corporation for plan years ended on or after


                                                                                                          - 9 -
                                                                                                                                                                              11/15/2010 17:15:55

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

Other Data: 15            Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)          Fiscal Year: 2010                Period: SEPTEMBER
       Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      AR - MD&A Section VIII, Notes 2 & 9
       Status: Complete                                                                   I = Inactive Line



 Tab: Other Text Data

       Section: A            Section Name: Risk Assumed

Line        Question                                                                                          Answer
                                                                                                              December 31, 2008. The Corporation adjusted the value reported for liabilites to December
                                                                                                              31, 2009, using a select rate of 4.52% that was derived in conjunction with the 1994 Group
                                                                                                              Annuity Mortality Static Table (with margins) projected to 2019 using Scale AA to
                                                                                                              approximate annuity prices as of December 31, 2009, with administrative expenses added.
                                                                                                              The underfunfing associated with these plans could be substanially different at September
                                                                                                              30, 2010, because of the economic conditions that existed between December 31, 2009 and
                                                                                                              September 30, 2010. The Corporation did not adjust the estimate for events that occurred
                                                                                                              between December 31, 2009, and Sepetmber 30, 2010.




                                                                                              - 10 -
                                                                                                                                                                       11/15/2010 17:15:55

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                Agency Notes:    N/A
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Fiscal 2010 Operating Revenues Not Reported in the     No Data: YES             Line Attributes: Dollars
                                            Budget Receipts                                                               Rounding Method: User-Defined          Decimal: User-Defined


Line Status   Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes     CY-Estate and gift taxes   CY-Customs duties
                                                and tax withholdings                    taxes
 1            Undistributed           Credit
              Offsetting receipts
              (offset against
              outlays)
 2            Proprietary receipts    Credit
              from the public
              (offset against
              outlays)
 3            Rents and royalties     Credit
              on the outer
              continental shelf
              lands (offset against
              outlays)
 4            Offsetting              Credit
              governmental
              receipts (offset
              against outlays)
 5            Intrabudgetary          Credit
              transactions (offset
              against outlays)
 6                                    Credit
 7                                    Credit
 8                                    Credit

Line Status   Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                           receipts                 revenue
 1            Undistributed           Credit
              Offsetting receipts
              (offset against
              outlays)
 2            Proprietary receipts    Credit
              from the public
              (offset against
              outlays)
 3            Rents and royalties     Credit
              on the outer


                                                                                                  - 11 -
                                                                                                                                                                         11/15/2010 17:15:55

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Analysis of FR Operating Revenue to Budget Receipts                                                Fiscal Year: 2010             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:    N/A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Fiscal 2010 Operating Revenues Not Reported in the      No Data: YES               Line Attributes: Dollars
                                            Budget Receipts                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description        NB           CY-Other taxes and CY-Miscellaneous earned
                                                          receipts                 revenue
              continental shelf
              lands (offset against
              outlays)
 4            Offsetting              Credit
              governmental
              receipts (offset
              against outlays)
 5            Intrabudgetary          Credit
              transactions (offset
              against outlays)
 6                                    Credit
 7                                    Credit
 8                                    Credit
     Section: B               Section Name: Fiscal 2010 Budget Receipts Not Reported in the         No Data: YES               Line Attributes: Dollars
                                            Operating Revenue                                                                Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description        NB         CY-Individual income    CY-Corporation income         CY-Employment and          CY-Unemployment CY-Other retirement     C      CY-Excise taxes   C
                                                            taxes   C                taxes   C       general retirement C            insurance  C
 1            Earned (exchange)       N/A
              revenue reported in
              the Statement of Net
              Cost
 2                                    N/A
 3                                    N/A
 4                                    N/A

Line Status   Line Description        NB       CY-Estate and gift taxes CY-Customs duties      C          CY-Miscellaneous
                                                                      C                                       receipts   C
 1            Earned (exchange)        N/A
              revenue reported in
              the Statement of Net
              Cost
 2                                     N/A



                                                                                                   - 12 -
                                                                                                                                                                                    11/15/2010 17:15:55

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 16                Analysis of FR Operating Revenue to Budget Receipts                                                        Fiscal Year: 2010             Period: SEPTEMBER
        Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A
        Status: Complete                                                                                 I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Fiscal 2010 Budget Receipts Not Reported in the                   No Data: YES             Line Attributes: Dollars
                                               Operating Revenue                                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status     Line Description          NB       CY-Estate and gift taxes CY-Customs duties              C         CY-Miscellaneous
                                                                          C                                              receipts   C
 3                                        N/A
 4                                        N/A




     Tab: Other Text Data

        Section: A                 Section Name: Fiscal 2010 Operating Revenues Not Reported in the               No Data: YES
                                                 Budget Receipts

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).
 5            Provide a detailed description of the agency entered description reconciling item(s).
     Tab: Other Text Data

        Section: B                 Section Name: Fiscal 2010 Budget Receipts Not Reported in the                  No Data: YES
                                                 Operating Revenue

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the earned revenue reconciling item(s).
 2            Provide a detailed description of the agency entered description reconciling item(s).




                                                                                                                - 13 -
     Audit of the Pension Benefit Guaranty
    Corporation’s Fiscal Year 2010 and 2009
     Special-Purpose Financial Statements


     Audit Report AUD-2011-5 / FA-10-69-4




                 Section XII

GF008 – Completion and Approvals Report
                                      U.S. Department of the Treasury/FMS             11-15-2010 17:18:17
                                     Governmentwide Financial Report System

                                    GF008 - Completion and Approvals Report


Entity: 1602 -    PENSION BENEFIT GUARANTY CORPORATION                          Year: 2010 SEPTEMBER

GF002 - Agency Audited Financial Statement Module
FPA Status:       COMPLETE                      By:                           Date:   12-NOV-10 14:32
CFO Status:       LOCK          Approved        By:                           Date:   12-NOV-10 14:37
IG Action:        LOCK                          By:                           Date:   15-NOV-10 14:58

GF003 - Reclassification Module
FPA Status:       COMPLETE                      By:                           Date:   12-NOV-10 14:32
CFO Status:       LOCK          Approved        By:                           Date:   12-NOV-10 14:38
IG Action:        LOCK                          By:                           Date:   15-NOV-10 14:58

GF004 - Intragovernmental Trading Partner Module
FPA Status:       COMPLETE                      By:                           Date:   12-NOV-10 14:32
CFO Status:       LOCK          Approved        By:                           Date:   12-NOV-10 14:38
IG Action:        LOCK                          By:                           Date:   15-NOV-10 14:58

GF006 - FR Notes Module
FPA Status:       COMPLETE                      By:                           Date:   12-NOV-10 14:32
CFO Status:       LOCK          Approved        By:                           Date:   12-NOV-10 14:38
IG Action:        LOCK                          By:                           Date:   15-NOV-10 14:58
GF007 - Other Data Module

FPA Status:       COMPLETE                      By:                           Date:   12-NOV-10 14:32
CFO Status:       LOCK          Approved        By:                           Date:   12-NOV-10 14:38
IG Action:        LOCK                          By:                           Date:   15-NOV-10 14:58

CLOSING PACKAGE - IG
IG Opinion:       Unqualified                   By:                           Date:   15-NOV-10 17:04
IG Explanation:
    Unqualified

IG file attachment: FS GFRS Submission.pdf




                                                      -1-
  Audit of the Pension Benefit Guaranty
 Corporation’s Fiscal Year 2010 and 2009
  Special-Purpose Financial Statements


  Audit Report AUD-2011-5 / FA-10-69-4




             Section XIII

GF120 – Reclassification Audit Trail
Report at Statement Summary Level
                                                                          U.S.Department of the Treasury                                                                 11/15/2010 17:21:52
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                   GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:           BALANCE SHEET                                                                     Fiscal Year: 2010                                    Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                           Reporting Method: MILLIONS                      Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                      Agency Amount              F/N    Closing Package Line Item       Reclassified Amount          Variance       Fiscal   Date/Time      User Id
                                                                                                                                                         Year

 B    Cash and cash equivalents                            (4,448)    F    Federal Investments                                     48               0    2010 10/21/2010 17:11:46 ACASTORO

                                                                      F    Fund Balance with Treasury                               1

                                                                      N    Cash and Other Monetary                            4,399
                                                                           Assets
 B    Cash and cash equivalents                            (3,752)    F    Federal Investments                                     45               0    2009 10/21/2010 17:11:46 ACASTORO

                                                                      F    Fund Balance with Treasury                               1

                                                                      N    Cash and Other Monetary                            3,706
                                                                           Assets
 N    Securities lending collateral                        (5,791)    N    Debt and Equity Securities                         5,791                 0    2010 10/21/2010 17:15:22 ACASTORO
      (Notes 3 and 5)
 N    Securities lending collateral                        (2,507)    N    Debt and Equity Securities                         2,507                 0    2009 10/21/2010 17:15:22 ACASTORO
      (Notes 3 and 5)
 B    Fixed maturity securities                           (39,631)    F    Federal Investments                               21,130                 0    2010 10/27/2010 17:34:39 ACASTORO

                                                                      N    Debt and Equity Securities                        18,526

                                                                      N    Derivative Assets                                      (25)

 B    Fixed maturity securities                           (33,742)    F    Federal Investments                               18,174                 0    2009 10/27/2010 17:34:39 ACASTORO

                                                                      N    Debt and Equity Securities                        15,595

                                                                      N    Derivative Assets                                      (27)

 N    Equity securities                                   (22,393)    N    Debt and Equity Securities                        22,393                 0    2010 10/21/2010 18:05:05 ACASTORO

 N    Equity securities                                   (22,954)    N    Debt and Equity Securities                        22,954                 0    2009 10/21/2010 18:05:05 ACASTORO

 N    Private equity                                       (2,050)    N    Debt and Equity Securities                         2,050                 0    2010 10/21/2010 18:09:24 ACASTORO

 N    Private equity                                       (1,237)    N    Debt and Equity Securities                         1,237                 0    2009 10/21/2010 18:09:24 ACASTORO

 N    Real estate and real estate                            (459)    N    Debt and Equity Securities                             459               0    2010 10/21/2010 18:11:06 ACASTORO
      investment trusts
 N    Real estate and real estate                            (596)    N    Debt and Equity Securities                             596               0    2009 10/21/2010 18:11:06 ACASTORO
      investment trusts
 N    Other                                                   (17)    N    Debt and Equity Securities                              17               0    2010 10/21/2010 18:15:05 ACASTORO


                                                                                                   - 1 -
                                                                          U.S.Department of the Treasury                                                                   11/15/2010 17:21:52
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:            BALANCE SHEET                                                                       Fiscal Year: 2010                                   Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                              Reporting Method: MILLIONS                     Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                       Agency Amount             F/N    Closing Package Line Item          Reclassified Amount         Variance       Fiscal   Date/Time      User Id
                                                                                                                                                           Year

 N    Other                                                 (507)     N    Debt and Equity Securities                                507              0    2009 10/21/2010 18:15:05 ACASTORO

 N    Sponsors of terminated plans                            (11)    N    Accounts and Taxes Receivable                              11              0    2010 10/21/2010 18:17:39 ACASTORO

 N    Sponsors of terminated plans                            (85)    N    Accounts and Taxes Receivable                              85              0    2009 10/21/2010 18:17:39 ACASTORO

 N    Premiums (Note 11)                                    (756)     N    Accounts and Taxes Receivable                             756              0    2010 10/21/2010 18:21:23 ACASTORO

 N    Premiums (Note 11)                                    (603)     N    Accounts and Taxes Receivable                             603              0    2009 10/21/2010 18:21:23 ACASTORO

 N    Sale of securities                                   (1,589)    N    Accounts and Taxes Receivable                         1,589                0    2010 10/21/2010 18:24:06 ACASTORO

 N    Sale of securities                                   (1,829)    N    Accounts and Taxes Receivable                         1,829                0    2009 10/21/2010 18:24:06 ACASTORO

 N    Derivative contracts (Note 4)                           (78)    N    Accounts and Taxes Receivable                              76              0    2010 10/21/2010 18:48:38 ACASTORO

                                                                      N    Derivative Assets                                           2

 N    Derivative contracts (Note 4)                           (69)    N    Accounts and Taxes Receivable                              68              0    2009 10/21/2010 18:48:38 ACASTORO

                                                                      N    Derivative Assets                                           1

 B    Investment income                                     (430)     F    Interest Receivable                                       176              0    2010 10/23/2010 13:28:15 ACASTORO

                                                                      N    Accounts and Taxes Receivable                               3

                                                                      N    Debt and Equity Securities                                251

 B    Investment income                                     (410)     F    Interest Receivable                                       192              0    2009 10/23/2010 13:28:15 ACASTORO

                                                                      N    Accounts and Taxes Receivable                               1

                                                                      N    Debt and Equity Securities                                217

 N    Other                                                    (5)    N    Accounts and Taxes Receivable                               5              0    2010 10/23/2010 13:32:03 ACASTORO

 N    Other                                                    (3)    N    Accounts and Taxes Receivable                               3              0    2009 10/23/2010 13:32:03 ACASTORO

 N    Capitalized assets, net                                 (32)    N    Property, Plant and Equipment                              32              0    2010 10/23/2010 13:34:09 ACASTORO

 N    Capitalized assets, net                                 (29)    N    Property, Plant and Equipment                              29              0    2009 10/23/2010 13:34:09 ACASTORO



                                                                                                   - 2 -
                                                                        U.S.Department of the Treasury                                                                  11/15/2010 17:21:52
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                   GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:         BALANCE SHEET                                                                     Fiscal Year: 2010                                     Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                         Reporting Method: MILLIONS                       Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                      Agency Amount            F/N    Closing Package Line Item       Reclassified Amount           Variance       Fiscal   Date/Time      User Id
                                                                                                                                                        Year

 N    Trusteed plans                                      88,022    N    Insurance and Guarantee                           (88,022)                0    2010 10/23/2010 13:37:06 ACASTORO
                                                                         Program Liabilities
 N    Trusteed plans                                      80,507    N    Insurance and Guarantee                           (80,507)                0    2009 10/23/2010 13:37:06 ACASTORO
                                                                         Program Liabilities
 N    Plans pending termination and                         501     N    Insurance and Guarantee                                (501)              0    2010 10/23/2010 13:39:40 ACASTORO
      trusteeship                                                        Program Liabilities
 N    Plans pending termination and                         601     N    Insurance and Guarantee                                (601)              0    2009 10/23/2010 13:39:40 ACASTORO
      trusteeship                                                        Program Liabilities
 N    Settlements and judgments                              55     N    Insurance and Guarantee                                 (55)              0    2010 10/23/2010 13:41:22 ACASTORO
                                                                         Program Liabilities
 N    Settlements and judgments                              58     N    Insurance and Guarantee                                 (58)              0    2009 10/23/2010 13:41:22 ACASTORO
                                                                         Program Liabilities
 N    Claims for probable terminations                     1,445    N    Insurance and Guarantee                            (1,445)                0    2010 10/23/2010 13:42:52 ACASTORO
                                                                         Program Liabilities
 N    Claims for probable terminations                     1,870    N    Insurance and Guarantee                            (1,870)                0    2009 10/23/2010 13:42:52 ACASTORO
                                                                         Program Liabilities
 N    Present value of nonrecoverable                      3,030    N    Other Liabilities                                  (3,030)                0    2010 10/23/2010 13:44:29 ACASTORO
      future financial assistance (Note
      7)
 N    Present value of nonrecoverable                      2,296    N    Other Liabilities                                  (2,296)                0    2009 10/23/2010 13:44:29 ACASTORO
      future financial assistance (Note
      7)
 N    Derivative contracts (Note 4)                          67     N    Derivative Liabilities                                  (12)              0    2010 10/26/2010 19:17:23 ACASTORO

                                                                    N    Other Liabilities                                       (55)

 N    Derivative contracts (Note 4)                         111     N    Derivative Liabilities                                   (9)              0    2009 10/26/2010 19:17:23 ACASTORO

                                                                    N    Other Liabilities                                      (102)

 N    Due for purchases of securities                      3,076    N    Other Liabilities                                  (3,076)                0    2010 10/23/2010 14:01:45 ACASTORO

 N    Due for purchases of securities                      1,922    N    Other Liabilities                                  (1,922)                0    2009 10/23/2010 14:01:45 ACASTORO

 N    Payable upon return of                               5,791    N    Other Liabilities                                  (5,791)                0    2010 10/23/2010 14:03:02 ACASTORO
      securities loaned
 N    Payable upon return of                               2,507    N    Other Liabilities                                  (2,507)                0    2009 10/23/2010 14:03:02 ACASTORO
      securities loaned
 N    Securities sold under                                   0     N    Other Liabilities                                         0               0    2010 10/23/2010 14:04:37 ACASTORO
      repurchase agreements

                                                                                                  - 3 -
                                                                      U.S.Department of the Treasury                                                                     11/15/2010 17:21:52
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                               GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:       BALANCE SHEET                                                                        Fiscal Year: 2010                                     Period: SEPTEMBER

         Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                           Reporting Method: MILLIONS                       Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                  Agency Amount              F/N    Closing Package Line Item          Reclassified Amount           Variance       Fiscal   Date/Time      User Id
                                                                                                                                                         Year

 N    Securities sold under                              643      N    Other Liabilities                                         (643)              0    2009 10/23/2010 14:04:37 ACASTORO
      repurchase agreements
 N    Unearned premiums                                  395      N    Other Liabilities                                         (395)              0    2010 10/23/2010 14:06:55 ACASTORO

 N    Unearned premiums                                  386      N    Other Liabilities                                         (386)              0    2009 10/23/2010 14:06:55 ACASTORO

 B    Accounts payable and accrued                       103      F    Benefit Program Contributions                               (1)              0    2010 10/23/2010 14:09:46 ACASTORO
      expenses (Note 8)                                                Payable
                                                                  N    Accounts Payable                                           (88)

                                                                  N    Other Liabilities                                          (14)

 B    Accounts payable and accrued                         87     F    Benefit Program Contributions                               (1)              0    2009 10/23/2010 14:09:46 ACASTORO
      expenses (Note 8)                                                Payable
                                                                  N    Accounts Payable                                           (73)

                                                                  N    Other Liabilities                                          (13)

 B    Net position                                    (24,795)    B    Net Position-Non-Earmarked                           24,795                  0    2010 10/23/2010 14:11:50 ACASTORO
                                                                       Funds
 B    Net position                                    (22,665)    B    Net Position-Non-Earmarked                           22,665                  0    2009 10/23/2010 14:11:50 ACASTORO
                                                                       Funds




                                                                                              - 4 -
                                                                        U.S.Department of the Treasury                                                                  11/15/2010 17:21:52
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                 GF120 - Reclassification Audit Trail Report - Statement Summary Level

     Statement:         INCOME STATEMENT                                                                   Fiscal Year: 2010                                    Period: SEPTEMBER

          Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                          Reporting Method: MILLIONS                      Decimal Point: ZERO
Debit/(Credit)
F/N Agency Line Item                    Agency Amount              F/N    Closing Package Line Item        Reclassified Amount          Variance       Fiscal   Date/Time      User Id
                                                                                                                                                        Year

 B    Total Costs                                       (11,908)    F    Benefit Program Costs                                    21               0    2010 10/25/2010 08:03:19 ACASTORO

                                                                    F    Buy/Sell Costs                                            5

                                                                    F    Federal Securities Interest                              54
                                                                         Expense
                                                                    F    Imputed Costs                                             6

                                                                    N    Non-Federal Gross Cost                             11,822

 B    Total Costs                                       (23,178)    F    Benefit Program Costs                                    19               0    2009 10/25/2010 08:03:19 ACASTORO

                                                                    F    Buy/Sell Costs                                           (4)

                                                                    F    Federal Securities Interest                             314
                                                                         Expense
                                                                    F    Imputed Costs                                             8

                                                                    N    Non-Federal Gross Cost                             22,841

 B    Total Revenue                                       9,778     F    Federal Securities Interest                         (1,699)               0    2010 10/25/2010 07:49:04 ACASTORO
                                                                         Revenue (exchange)
                                                                    F    Imputed Financing Source                                 (6)

                                                                    N    Non-Federal Earned Revenue                          (8,062)

                                                                    N    Other Taxes and Receipts                                (11)

 B    Total Revenue                                     11,746      F    Federal Securities Interest                         (1,316)               0    2009 10/25/2010 07:49:04 ACASTORO
                                                                         Revenue (exchange)
                                                                    F    Imputed Financing Source                                 (8)

                                                                    N    Non-Federal Earned Revenue                         (10,427)

                                                                    N    Other Taxes and Receipts                                  5

 B    Net position, beginning of year                   (22,665)    B    Beginning Net Position                             22,665                 0    2010 10/25/2010 07:52:28 ACASTORO

 B    Net position, beginning of year                   (11,233)    B    Beginning Net Position                             11,233                 0    2009 10/25/2010 07:52:28 ACASTORO




                                                                                                  - 5 -
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
